<html>
<title> - H.R. 366, THE VOCATIONAL AND TECHNICAL EDUCATION FOR THE FUTURE ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





  H.R. 366, THE VOCATIONAL AND TECHNICAL EDUCATION FOR THE FUTURE ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           February 15, 2005

                               __________

                            Serial No. 109-1

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-782                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Vernon J. Ehlers, Michigan           Robert E. Andrews, New Jersey
Judy Biggert, Illinois               Robert C. Scott, Virginia
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Ric Keller, Florida                  Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bobby Jindal, Louisiana              George Miller, California, ex 
John R. ``Randy'' Kuhl, Jr., New         officio
    York
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 15, 2005................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Ainsworth, Dr. Patrick, Assistant Superintendent and 
      Director, Secondary, Postsecondary and Adult Leadership 
      Division, California Department of Education, Sacramento, 
      CA.........................................................    15
        Prepared statement of....................................    17
    Atkinson, Dr. Lewis L., III, Associate Secretary of 
      Education, Adult Education & Workforce Development, 
      Delaware Department of Education, Dover, DE................     7
        Prepared statement of....................................     9
    Kister, Dr. Joanna, Educational Consultant, Columbus, OH.....    11
        Prepared statement of....................................    12
    Moore, Russ, Chief Executive Officer, Central Educational 
      Center, Newnan, GA.........................................    22
        Prepared statement of....................................    24
        Appendix A...............................................    46
        Appendix B...............................................    50
        Appendix C...............................................    61
    Simons, Emily, Vocational and Technical Education Student, 
      Eastern Technical School, Baltimore, MD....................    19
        Prepared statement of....................................    21

 
  H.R. 366, THE VOCATIONAL AND TECHNICAL EDUCATION FOR THE FUTURE ACT

                              ----------                              


                       Tuesday, February 15, 2005

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2175, Rayburn House Office Building, Hon. Mike Castle 
[Chairman of the Subcommittee] Presiding.
    Present: Representatives Castle, Osborne, Biggert, Woolsey, 
Andrews, Scott, Hinojosa and Davis of California.
    Staff Present: Jennifer Daniels, Communications Staff 
Assistant; Amanda Farris, Professional Staff Member; Kevin 
Frank, Professional Staff Member; Jessica Gross, Legislative 
Assistant; Joshua Holly, Director of Media Affairs; Sally 
Lovejoy, Director of Education and Human Resources Policy; 
Alexa Marrero, Press Secretary; Krisann Pearce, Deputy Director 
of Education and Human Resources Policy; Whitney Rhoades, 
Professional Staff Member; Deborah L. Emerson Samantar, 
Committee Clerk/Intern Coordinator; Jo-Marie St. Martin, 
General Counsel; Brad Thomas, Legislative Assistant; Denise 
Forte, Minority Legislative Associate/Education; Lloyd Horwich, 
Minority Legislative Associate/Education; Ricardo Martinez, 
Minority Legislative Associate/Education; Joe Novotny, Minority 
Legislative Assistant/Education; and Mark Zuckerman, Minority 
General Counsel.
    Chairman Castle. Good afternoon, everybody. The quorum 
being present, the Subcommittee on Education Reform and the 
Committee on Education and the Workforce will come to order.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    We are meeting today to hear testimony on H.R. 366, the 
Vocational and Technical Education for the Future Act. Under 
Committee Rule 12(b) opening statements are limited to the 
Chairman and Ranking Minority Member of the Subcommittee; 
therefore, further members who have statements, they may be 
included in the hearing record. For that I ask unanimous 
consent that the hearing record remain open 14 days to allow 
members' statements and other extraneous material referenced 
during the hearing to be submitted in the official hearing 
record. Without objection, so ordered.
    Thank you for joining us here today to hear testimony on 
H.R. 366, the Vocational and Technical Education For the Future 
Act which I introduced a few weeks ago. This is our first 
hearing this year on this bill to authorize the Carl D. Perkins 
Vocational and Technical Education Act this Congress. We held 
three hearings on vocational and technical education during the 
108th Congress--this is the 109th Congress, for those who don't 
know it--and have enjoyed learning about and discussing the 
Perkins program.
    H.R. 366 is largely based on the provisions in H.R. 4496, 
the Perkins reauthorization bill that I introduced last 
Congress, and which was reported out of Subcommittee and 
Committee by voice vote. We continue to support the reforms 
contained in both bills, and we look forward to getting 
feedback from the education and Perkins communities on the 
major provisions in the legislation today.
    The Perkins Act aims to prepare youth and adults for the 
future by building their academic and technical skills in 
preparation for postsecondary education and/or employment. The 
bill we are examining today enhances Perkins by ensuring both 
secondary and postsecondary students receiving assistance 
through the program are acquiring rigorous academic and 
technical skills and will have the opportunity to transition 
into further education and/or successful employment.
    H.R. 366 strengthens accountability by requiring that 
locals establish adjusted levels of performance to complement 
the State-adjusted levels of performance already in current 
law. The State agency will evaluate annually whether the local 
recipient is making substantial progress in achieving the 
local-adjusted levels of performance. Our goal is not to 
penalize those local areas facing difficulty in achieving high 
quality outcomes for their students, but to create a structure 
that includes technical assistance, opportunities for program 
improvement, and sanctions only as a last resort.
    H.R. 366 also folds the separate Tech Prep program 
activities and funding into the larger State grant. Under the 
bill, States will be expected to spend the same amount of money 
on Tech Prep activities as they did under the former stand-
alone program. Through this reauthorization we want to ensure 
that all State programs incorporate important lessons learned 
from the former separate grant program, and strengthen the ties 
between secondary and postsecondary education. Consortia that 
would receive funding under the State grant for Tech Prep 
activities must be effective programs that ensure the transfer 
of credits from secondary to postsecondary education and 
provide nonduplicative, academic and vocational and technical 
education.
    The bill also requires States to establish model sequences 
of courses to emphasize further student academic and vocational 
and technical achievement. Sequences of courses will 
incorporate a nonduplicative progression of both secondary and 
postsecondary elements which would include both academic and 
vocational and technical content. Local recipients at both the 
secondary and postsecondary level would adopt at least one 
model sequence of courses as developed by the State. I believe 
this also will help drive program improvements by ensuring that 
States clarify the progression of academic and vocational and 
technical courses needed for the postsecondary education and 
training or employment of a student's choice.
    As a result of the changes in the bill, I believe that H.R. 
366 would help States, community colleges and other 
postsecondary education institutions and local educational 
agencies better utilize funds for vocational and technical 
education programs, increase accountability, emphasize student 
achievement, and strengthen opportunities for coordination.
    We welcome the testimony of our witnesses as we seek to 
ensure that the reauthorization of the Perkins Act achieves 
these goals. Our panel today represents State and local 
educators and a student who will share with us the experiences 
in operating and participating in vocational and technical 
education programs. We thank you for joining us today, and 
appreciate your insights.
    And I will now yield to Congresswoman Woolsey for any 
opening statements she may have.
    [The prepared statement of Chairman Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good afternoon. Thank you for joining us today to hear testimony on 
H.R. 366, the Vocational and Technical Education for the Future Act, 
which I introduced a few weeks ago. This is our first hearing on this 
bill to reauthorize the Carl. D. Perkins Vocational and Technical 
Education Act this Congress. We held three hearings on vocational and 
technical education during the 108th Congress and have enjoyed learning 
about and discussing the Perkins program. H.R 366 is largely based on 
the provisions in H.R. 4496, the Perkins reauthorization bill that I 
introduced last Congress, and which was reported out of Subcommittee 
and Committee by voice vote. We continue to support the reforms 
contained in both bills and we look forward to getting feedback from 
the education and Perkins communities on the major provisions in the 
legislation today.
    The Perkins Act aims to prepare youth and adults for the future by 
building their academic and technical skills in preparation for 
postsecondary education and/or employment. The bill we are examining 
today enhances Perkins by ensuring both secondary and postsecondary 
students receiving assistance through the program are acquiring 
rigorous academic and technical skills and will have the opportunity to 
transition into further education and/or successful employment.
    H.R. 366 strengthens accountability by requiring that locals 
establish adjusted levels of performance to complement the state 
adjusted levels of performance already in current law. The state agency 
will evaluate annually whether the local recipient is making 
substantial progress in achieving the local adjusted levels of 
performance. Our goal is not to penalize those local areas facing 
difficulty in achieving high quality outcomes for their students, but 
to create a structure that includes technical assistance, opportunities 
for program improvement, and sanctions only as a last resort.
    H.R. 366 also folds the separate Tech-Prep program activities and 
funding into the larger state grant. Under the bill, states still will 
be expected to spend the same amount of money on tech-prep activities 
as they did under the former stand-alone program. Through this 
reauthorization, we want to ensure that all state programs incorporate 
important lessons learned from the former separate grant program and 
strengthen the ties between secondary and postsecondary education. 
Consortia that would receive funding under the state grant for tech-
prep activities must be effective programs that ensure the transfer of 
credits from secondary to postsecondary education and provide non-
duplicative, academic and vocational and technical education.
    The bill also requires states to establish model sequences of 
courses to emphasize further student academic and vocational and 
technical achievement. Sequences of courses will incorporate a non-
duplicative progression of both secondary and postsecondary elements, 
which would include both academic and vocational and technical content. 
Local recipients at both the secondary and postsecondary level would 
adopt at least one model sequence of courses as developed by the state. 
I believe this also will help drive program improvements by ensuring 
that states clarify the progression of academic and vocational and 
technical courses needed for the postsecondary education and training 
or employment of a student's choice.
    As a result of the changes in the bill, I believe that H.R. 366 
would help states, community colleges and other postsecondary education 
institutions, and local educational agencies better utilize funds for 
vocational and technical education programs, increase accountability, 
emphasize student achievement, and strengthen opportunities for 
coordination.
    We welcome the testimony of our witnesses as we seek to ensure that 
the reauthorization of the Perkins Act achieves these goals. Our panel 
today represents state and local educators and a student who will share 
with us their experiences in operating and participating in vocational 
and technical education programs. We thank you for joining us today and 
appreciate your insights.
    I will now yield to Congresswoman Woolsey for any opening statement 
she may have.
                                 ______
                                 

STATEMENT OF HON. LYNN C. WOOLSEY, RANKING MEMBER, SUBCOMMITTEE 
 ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman. I certainly 
appreciate your holding this hearing on H.R. 366, because it 
demonstrates our ongoing commitment to the bipartisan process 
that enabled our Subcommittee and Full Committee last year to 
approve this bill by voice vote.
    And as an aside to our witnesses, do not think because 
these chairs are not full that other members are not interested 
in your testimony. This is a travel day. We do not start voting 
until 6:30 tonight. People will be coming in as their planes 
land and they get to Washington.
    I am especially pleased that we are picking up from where 
we left off last year, particularly since the President's 
recent proposal is to eliminate the Perkins program. We need to 
address that because I believe it would make what we have done 
to date moot, and we have to step up to that issue.
    And as we heard from our witnesses, Mr. Chairman, last 
year, and we will hear today, vocational and technical 
education works; it works for students who want to go 
immediately from high school to college, and it works for 
students who plan first to go into the workforce. Of course, 
that doesn't mean there isn't room for improvement.
    I think one of the strengths of H.R. 366 is that it 
continues the integration of academics into Perkins programs 
without losing the traditional focus on vocation, because some 
students may need to learn math to get a job, and others may 
need to learn it because they are going on to college, but all 
students need to learn math.
    Although H.R. 366 does not restore pre-1998 set-asides for 
special populations and nontraditional fields, I am pleased 
that as a result of last year's negotiations, it makes 
participation in nontraditional fields a core performance 
indicator for secondary schools, and also requires local 
programs to help prepare special populations for high-skill 
occupations that will lead to self-sufficiency.
    While I still have some concerns with the bill, for 
example, that it reduces funds for State administration, I 
appreciate your efforts, Mr. Chairman, to address the concerns 
of all the members of this Subcommittee; but I must say I 
noticed that in their written testimony, the witness from your 
state of Delaware, Mr. Chairman, and the witness from Ohio, the 
home State of our Full Committee Chairman, both oppose reducing 
State administrative funds. I hope that is a good sign, and I 
hope that we can reach agreement on that issue this year as 
well.
    In any event, I look forward to hearing from our witnesses, 
we have got a great panel, and continuing to work with you to 
make this the best bill we can. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Woolsey follows:]

  Statement of Hon. Lynn C. Woolsey, Ranking Member, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    I appreciate your holding this hearing on H.R. 366. It demonstrates 
our ongoing commitment to the bipartisan process that enabled our 
Subcommittee and full Committee to approve this bill by voice vote last 
year.
    I am especially pleased that we are picking up from where we left 
off last year, given the President's recent proposal to eliminate the 
Perkins program, which would make all our work to date moot.
    As we heard from witnesses last year and will hear today, 
vocational and technical education works. It works for students who 
want to go immediately from high school to college and it works for 
students who plan first to go into the workforce. Of course, that 
doesn't mean there isn't room for improvement.
    I think one of the strengths of H.R. 366 is that it continues the 
integration of academics into Perkins programs without losing the 
traditional focus on vocations. Because, some students may need to 
learn math to get a job and others may need to learn it because they 
are going on to college, but they all need to learn math.
    Although H.R. 366 does not restore pre-1998 set-asides for special 
populations and non-traditional fields, I am pleased that as a result 
of last year's negotiations, it makes participation in non-traditional 
fields a core performance indicator for secondary schools and also 
requires local programs to help prepare special populations for high 
skill occupations that will lead to self-sufficiency.
    While I still have some concerns with the bill, for example, that 
it reduces funds for state administration, I appreciate your efforts to 
address the concerns of all the members of this Subcommittee.
    In fact, I noticed that in their written testimony, the witness 
from your state of Delaware, Mr. Chairman, and the witness from Ohio, 
the home state of our full Committee Chairman, opposed reducing state 
administrative funds.
    I hope that is a good sign and that we can reach agreement on that 
issue, as well.
    In any event, I look forward to hearing from our witnesses and to 
continuing to work with you on H.R. 366 as we begin the 109th Congress.
    Thank you.
                                 ______
                                 
    Chairman Castle. Well, thank you, Ms. Woolsey. I guess 
based on that Dr. Atkinson will not be testifying today, you 
are disinvited from this hearing. We appreciate your pointing 
that out, before he said anything, in the opening of the 
Committee.
    We do have a distinguished panel of witnesses, and Dr. 
Atkinson is a friend, and he is the Associate Secretary for 
Adult Education and Workforce Development with the Department 
of Education. His responsibilities include oversight of State-
approved vocational and technical education programs, as well 
as supervision of prison education, associated compensation for 
professional development, score climbing and discipline, and 
alternative schools.
    Prior to this position Dr. Atkinson served in the Delaware 
Department of Education as the State director of vocational and 
technical education, and as an educational associate 
responsible for curriculum in the Office of Vocational 
Programs. Prior to joining the department, Dr. Atkinson served 
in numerous positions over the course of 15 years at the 
Delaware Technical Community College's Terry campus.
    The second witness will be Dr. Joanna Kister. Dr. Kister is 
a consultant for education and workforce development issues, 
focusing on vocational and technical education policy, 
curriculum, instruction and assessment, high school 
improvement, and career and themed academies. She has authored 
a number of reports dealing with different aspects of 
vocational and technical education, and working with numerous 
State departments of education, businesses and national and 
international associations, all projects related to vocational 
and technical education. Dr. Kister is an adjunct faculty 
member at The Ohio State University and was formerly the State 
director for the Office of Career and Technical Education in 
the Ohio Department of Education.
    And I understand you would like to introduce the next 
witness; is that correct, Ms. Woolsey?
    Ms. Woolsey. If I may.
    Chairman Castle. You certainly may.
    Ms. Woolsey. Thank you.
    I am pleased to introduce Dr. Patrick Ainsworth, who is the 
assistant superintendent and director of the Secondary, 
Postsecondary and Adult Leadership Division of the California 
Department of Education.
    Dr. Ainsworth oversees secondary education, alternative 
education, adult education, college and postsecondary 
relations, career and technical education, school to career, 
workforce preparation programs and educational equity, and that 
is in a State that has over 35 million people, the size of a 
country. I do not know how you do it, Dr. Ainsworth.
    Prior to joining the California Department of Education, he 
worked for the Riverside County Office of Education where he 
served as the administrator of a countywide consortium devoted 
to educating and training disadvantaged and at-risk youth.
    During his long career Dr. Ainsworth also has been a 
teacher, a counselor and a principal. So, given his experience 
and dedication at all levels of education, I think we are 
fortunate to have Dr. Ainsworth here with us today to discuss 
H.R. 366.
    Thank you.
    Chairman Castle. Thank you, Ms. Woolsey. And welcome to Dr. 
Ainsworth as well.
    Our next witness will be Ms. Emily Simons. Ms. Simons is 
currently a senior at Eastern Technical School in Baltimore 
County, Maryland. She is enrolled in the allied health program 
at Eastern, and is interested in pursuing a career in the 
medical field. In addition to her regular academic courses, 
Emily is taking a sequence of courses in the allied health 
program that have earned her community college credit and are 
preparing her to pursue the allied health field at the 
postsecondary level. Emily, we welcome you, too.
    And our final witness today will be Mr. Russ Moore. Mr. 
Moore is a CEO of the Central Educational Center, or CEC, in 
Newnan, Georgia. The CEC is a publicly funded charter school 
serving students in grades 9 through 12, and has been 
recognized by the Department of Education and numerous industry 
and professional associations for its excellence in combining 
academics with vocational and technical education. Prior to 
serving in this role, Mr. Moore held several marketing and 
communications positions in business and education.
    Welcome, Mr. Moore.
    Before the witnesses begin to testify, I would like to 
remind the members that we will be asking questions after the 
entire panel has testified.
    In addition, Committee Rule 2 imposes a 5-minute limit on 
all questions, that includes questions and answers, and also 5 
minutes as far as the witnesses are concerned. You will have a 
green light for 4, a yellow for 1, and then it goes red; and 
after that a whole lot of fireworks go off, and all kinds of 
problems happen. We will try to hear you out as thoroughly as 
we can because we really appreciate you being here; some of you 
have traveled a long ways. And believe me, this is very helpful 
to all of us.
    I will just expand a little bit on what Ms. Woolsey said. 
We will have members coming in and out, but just remember all 
the staff takes all this and parses it all very carefully, so 
your testimony is seen by a lot of eyes before it is all said 
and done. So, not to put too much pressure on you, but we just 
thought we would let you know that.
    And with that, we will start with Dr. Atkinson.

  STATEMENT OF LEWIS L. ATKINSON, III, ASSOCIATE SECRETARY OF 
 EDUCATION, ADULT EDUCATION & WORKFORCE DEVELOPMENT, DELAWARE 
               DEPARTMENT OF EDUCATION, DOVER, DE

    Dr. Atkinson. Good afternoon. Thank you, Chairman Castle, 
Congresswoman Woolsey, and members of the Subcommittee, for the 
opportunity to testify regarding H.R. 366, the Vocational and 
Technical Education for the Future Act, and to share the 
perspectives and needs of the State of Delaware.
    I am especially honored to appear before you, Chairman 
Castle, as you continue to distinguish yourself by your 
leadership and public service. We are fortunate to have you 
working to secure better opportunities and Federal policy for 
the residents of Delaware and our Nation.
    The legislation before this Committee is vital to Delaware. 
The funding is critical to our State, for it is 
transformational funding, funding that we use to lead 
innovation and ensure currency of programs. It is the funding 
we use to provide professional development to our teachers, 
purchase modern equipment for classrooms and laboratories, and 
support our career and technical organizations.
    I believe that H.R. 366 includes many policy advancements 
that will support our work in Delaware. The goals of 
emphasizing academic and technical achievement, improved 
accountability, promoting model sequences of courses and 
aligning existing Federal investments are strong legislative 
concepts that will do much to ensure technical education is 
meeting the needs of today's economy and workplace. This 
afternoon I will focus my comments on accountability and the 
funding for State administration.
    Accountability. The transformation of Delaware's career and 
technical educational system began during Chairman Castle's 
tenure as Delaware's Governor. And the central component to 
Delaware's ongoing improvement of career and technical 
education is the use of data to drive program decisions, 
including what professional development should be offered, how 
we spend our State resources, and what programs we will approve 
for funding. Our existing high school reform initiatives rely 
heavily on data and accountability as a management tool, and if 
we know anything in Delaware, we know that accountability-
driven reform works.
    The provisions in H.R. 366 will help make these data come 
alive; it will ensure that the Perkins accountability 
requirements are more than just reports to complete. However, 
requiring negotiation of performance measures with local 
recipients will be a significant increase in the administrative 
responsibilities of the State, but it is worth the effort. When 
local recipients go through the process of setting performance 
goals, they have to seriously review the story the data tells, 
what areas require attention, what interventions are necessary 
to improve performance. This process is critical to 
establishing a culture of high expectations and performance and 
will focus attention and resources on student success.
    Now let me address State administration funds.
    In Delaware we receive the minimum allocation of $250,000 
in State administration funds. This provision has not changed 
since 1990, and it is not recommended to change in H.R. 366. 
Since 1990, inflation has reduced the buying power of this 
$250,000 by 43 percent. This means that the $250,000 of State 
administration that we had at our disposal in 1990--or excuse 
me, in 2004 terms, really has a buying power of only $142,500.
    H.R. 366 requires that State administration funds be used 
to develop the State plan, review local plans, monitor and 
evaluate program effectiveness, assure compliance with all 
applicable Federal laws and provide technical assistance. These 
current requirements alone easily consume the full State 
administration funds. Considering H.R. 366's more aggressive 
accountability requirements, including the mandatory provision 
of technical assistance to local programs not meeting 
performance expectations, this level of funding is simply 
insufficient to carry out our responsibilities.
    My colleagues across the country and I are concerned about 
H.R. 366's proposed reduction of State administration funds 
from 5 percent to 2 percent, or $250,000, whichever is greater. 
I urge you to restore the State administration funds to 5 
percent for larger States, and raise the minimum for State 
administration for small States to at least $500,000. This 
action will ensure that States can be good stewards of Federal 
funds, while also providing high-quality technical assistance 
that is mandated in H.R. 366.
    In conclusion, again, thank you for this opportunity. I 
sincerely appreciate Congress' efforts to reauthorize the 
Perkins legislation, thus maintaining the critical Federal 
investment in technical and career education. I am happy to 
answer any questions you may have, elaborate on my portion of 
the testimony, and offer my support in completing the work on 
H.R. 366. Thank you.
    Chairman Castle. Thank you, Dr. Atkinson. We appreciate it, 
and we will come back to you, obviously, for questions when we 
are done hearing from everybody.
    [The prepared statement of Dr. Atkinson follows:]

 Statement of Dr. Lewis L. Atkinson, Associate Secretary of Education, 
                    Delaware Department of Education

    Good afternoon. Thank you Chairman Castle, Congresswoman Woolsey 
and members of the subcommittee for the opportunity to testify 
regarding H.R. 366, the Vocational and Technical Education for the 
Future Act, and to share the perspectives and needs of the state of 
Delaware. I am especially honored to appear before you Chairman Castle, 
as you continue to distinguish yourself by your leadership and public 
service. We are fortunate to have you working to secure better 
opportunities and federal policy for the residents of Delaware and our 
nation.
    In my role as Assistant Secretary of Education at the Delaware 
Department of Education, I manage the Adult Education and Workforce 
Development Branch of the Department. This branch manages and funds 
career technical programs at the secondary level, adult education 
programs in our community centers and adult prisons that range from 
basic literacy to the completion of the James H. Groves Adult High 
School, the Delaware Center for Educational Technology, and the 
Delaware Interscholastic Athletic Association. In career technical 
education in Delaware, we serve nearly 17,000 secondary students 
concentrating in career technical education through secondary programs 
in all of our middle and high schools. Further, we support post 
secondary programs at the four Delaware Technical and Community 
Colleges and in the adult programs at our three comprehensive 
vocational technical high schools districts.
Support for spirit and intent of H.R. 366
    The legislation before this committee is vital to Delaware. We 
receive approximately $4.8 million dollars each year, slightly above 
the minimum allocation of Perkins funding. This funding is critical to 
our state, as it is transformational funding--funding that we use to 
lead innovation and ensure currency of programs. It is the funding we 
use to provide professional development to our teachers, purchase 
modern equipment for classrooms and laboratories, and support our 
career technical student organizations. This investment helps create 
opportunities for youth and adults and helps to ensure that we are 
meeting our employer's needs so that our economy is vibrant.
    I believe H.R. 366 includes many policy advancements that will 
support our work in Delaware. The goals of emphasizing academic and 
technical achievement, improved accountability, promoting model 
sequences of courses and aligning existing federal investments are 
strong legislative concepts that will do much to ensure that career 
technical education is meeting the needs of today's economy and 
workforce and is prepared and able to adapt to future demands.
Evolution of Delaware's CTE system--It works!
    Across the state of Delaware, our system of career technical 
education has undergone a transformation that was supported in part by 
Perkins funding. As we know, students vote with their feet and through 
the 1980's we experienced a decade of declining enrollments in career 
and technical education, especially in our vocational technical school 
districts. Not only were enrollments declining, but student assessment 
performance was low, and our career technical programs were out of step 
with the needs of business and industry. Through our partnership with 
High Schools That Work and aggressive local and state leadership, our 
career technical programs underwent a serious review and major changes 
were made. In a painful but necessary process, some programs were shut 
down and others completely rebuilt. A wonderful example of this 
transformation is Sussex Technical High School, whose former principal, 
Ms. Walls-Culotta, appeared before this committee at your first hearing 
on the reauthorization of Perkins.
    Part of Sussex Tech's success, and the success of career technical 
education across our state, is the development of challenging programs 
of study that integrate and blend academic and career technical 
instruction, as well the delivery of career technical education 
organized around what you refer to in H.R. 366 as model sequences of 
courses. Model sequences of courses are the future framework of quality 
career technical education. They establish shared responsibility for 
student success between academic and career technical education. Model 
sequences of courses ensure a sequencing of course work that promotes 
advanced or dual credit, as well as the important connection to the 
needs of employers and the workforce. The inclusion of this provision 
in H.R. 366 will expedite the transition and transformation of programs 
across the country so that we have more successes like Sussex Tech.
Focus on accountability
    Another essential component to Delaware's ongoing transformation is 
the use of data to drive program decisions, including what professional 
development should be offered, how we spend our state resources and 
what programs we will approve for funding. Our existing high school 
reform initiatives rely heavily on data and accountability as a 
management tool. We know accountability-driven reform works. Across our 
state, test scores for career and technical students in our 
comprehensive vocational technical high schools on the Delaware Student 
Testing Program are equal or better than all students in Reading and 
Math. The drop out rate for career technical students is half of that 
of all high school students.
    The provisions in H.R. 366 will help make the data come alive, as 
it will ensure that the Perkins accountability requirements are more 
than just reports to complete. Requiring negotiation of performance 
measures with local recipients will be a significant increase in the 
administrative responsibilities of the state, but it is worth the 
effort. When local recipients go through the process of setting 
performance goals, they have to seriously review what story the data 
tells now, what areas require attention and what interventions are 
necessary to improve performance. This process is critical to 
establishing a culture of high expectations and performance and will 
focus attention and resources on student success. H.R. 366 will help 
build a bridge between the accountability provisions to the local and 
state plans, as well as the mandatory and permissive uses of funds. 
This connection is important and will help strengthen the relationship 
between states and locals, making us partners in ensuring success 
rather than pen pals sharing reports and regulations. It will also 
ensure that we are able to be more nimble and responsive in determining 
what works and what doesn't work and redirecting efforts and resources 
to meet identified needs.
Small State Minimum
    In Delaware, we receive minimal allocation of $250,000 in state 
administration funds. This provision has not changed since 1990 and is 
not recommended to change in H.R. 366. Since 1990, inflation has 
reduced the buying power of this $250,000 by 43%. This means that the 
$250,000 state administration dollars really only had the value of 
$142,500 in 2004. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Bureau of Labor Statistics Inflation Calculator, http://
146.142.4.24/cgi-bin/cpicalc.pl.
---------------------------------------------------------------------------
    H.R. 366 requires that state administration funds be used to:
    <bullet>  Develop the state plan;
    <bullet>  Review local plans;
    <bullet>  Monitor and evaluate program effectiveness;
    <bullet>  Assure compliance with all applicable Federal laws; and
    <bullet>  Provide technical assistance.
    These current requirements alone easily consume the full state 
administration funds. Considering H.R. 366's more aggressive 
accountability requirements, including the mandatory provision of 
technical assistance to local programs not meeting performance 
expectations, this level of funding is simply insufficient to carry out 
our responsibilities in an effective, efficient and thorough manner.
    My colleagues across the country and I are concerned about H.R. 
366's proposed reduction of state administration funds from 5% to 2% or 
$250,000, whichever is greater. <SUP>2</SUP> I urge you to restore the 
state administration funds to 5% for the larger states and raise the 
minimum for state administration for small states to at least $500,000. 
This action will ensure that states can be good stewards of the federal 
funds, while also providing the high-quality technical assistance 
mandated in H.R. 366.
---------------------------------------------------------------------------
    \2\ H.R. 366 proposed to reduce state administration from 5% to 2% 
but retains the provision that the minimum amount of state 
administration funding a state may receive is $250,000.
---------------------------------------------------------------------------
Conclusion
    Thank you for this opportunity. I sincerely appreciate the 
Congress' efforts to reauthorize the Perkins legislation, thus 
maintaining the crucial federal investment in career technical 
education. I am happy to answer any questions you may have, elaborate 
on any portion of my testimony and offer my support in completing work 
on H.R. 366 expeditiously.
                                 ______
                                 
    Chairman Castle. Dr. Kister.

    STATEMENT OF DR. JOANNA KISTER, EDUCATIONAL CONSULTANT, 
                          COLUMBUS, OH

    Dr. Kister. Good afternoon, Chairman Castle, Congresswoman 
Woolsey, and members of the Committee. Thank you for the 
opportunity to comment on H.R. 366.
    I have worked in all levels of education in almost every 
State. Currently I am providing technical assistance to local 
districts to improve high schools and career technical 
programs. I work with teachers to incorporate the belief that 
all students can learn, and it is my job to see that they do.
    I firmly believe that H.R. 366 is sound Federal policy, and 
I will speak to three progressive components in the bill, 
increased accountability, simplification of funding streams, 
model sequences of courses, and will stress the criticality of 
the State role to support local program quality.
    I do technical assistance business for High Schools at 
Work, the Nation's largest high school improvement initiative, 
that includes a focus on rigorous career technical studies. We 
analyze performance of subgroups and make recommendations 
through a process we call closing the gaps. As I worked in the 
past year in schools in New York, California, Texas, Ohio, 
Arkansas, no matter how big or small the State, data is a 
powerful motivator and driver for change, but we need good 
data. I encourage you to consider establishing an assessment 
fund that would support the creation of technical assessments, 
aligned to the model sequences of courses.
    I served on the National Assessment of Vocational 
Education, the NAVE panel, and technical assessments is a very 
strong recommendation from that report. Technical assessments 
would inform employers, postsecondary institutions, and would 
provide an accountability and a program improvement measure for 
career tech programs.
    I am supportive of the integration of the successful 
features of the Basic State Grant and Tech Prep programs, as 
proposed. As I work in schools, I have seen Tech Prep in some 
cases become a silo within career tech. In some States it has 
not been well defined; in other States it has become a sorting 
and tracking mechanism that creates an elite program at the 
expense of career technical education. When I interviewed 
students in one school, they actually identified themselves--
they almost labeled themselves as, I am career tech, I am 
college Tech Prep. In some cases Tech Prep students have 
different academic requirements for graduation; they are taken 
on tours of college campuses and given class time to complete 
college applications, while that is not true for non-Tech Prep 
students.
    Federal policy should support the elimination of barriers 
to postsecondary education and not create them; we should not 
be about predicting the stopping-off points for students.
    Tech Prep funding was established as seed money to spark 
change. In Ohio and across the Nation, this funding was used to 
encourage collaboration between secondary and postsecondary 
education, and that has probably been its most visible success, 
particularly in the form of articulation agreements. Yet, NAVE 
found that relatively few Tech Prep students take advantage of 
the articulated credit they receive.
    The goals of Tech Prep are still important today, aligning 
secondary and postsecondary instruction and preparing students 
for postsecondary education; but those goals should be shared 
by the entire career technical community, not just a segment.
    While I am supportive of the proposed restructuring of the 
funding streams, I am concerned, and we are concerned, that 
there is not a loss of funding. Perkins funds have not kept 
pace with inflation or demand. I understand that funding is not 
the jurisdiction of this Committee, but in light of the current 
conservative fiscal environment and the President's recent 
budget, anything this Committee can do to ensure that the 
Federal investment in career technical education is, at a 
minimum, maintained, but, more preferably, increased, would be 
appreciated.
    As I work across the country, I am seeing programs such as 
biotechnology, the teaching professions, Project Lead the Way, 
pre-engineering, logistics, interactive media that blend the 
lines between academic and technical instruction. We need 
support to continue to develop model sequences of courses and 
cutting-edge programs.
    There is one area that I would like to recommend change: to 
restore the 5 percent of funds set aside for State 
administration. When I was State director, my comments would 
have been perceived as self-serving, but now I am working with 
local schools, and I can tell you that they want, they need, 
they seek support from States. A local school in one State in 
which I worked that has significantly reduced State staff said, 
``When I call, there is no one there.'' In a field that changes 
as rapidly as career tech, teachers seek help with program 
design, standards, curriculum, assessment, professional 
development. The success of High Schools that Work in 32 States 
is attributed to its use of State leadership.
    More important than the technical assistance role that 
States play is leadership for change. Most States are in front 
of local districts on leadership for the very initiatives that 
you stress in this bill. As I travel the country, I can state 
unequivocally where there is strong State leadership, quality 
programs exist in greater numbers, test scores are higher, and 
student options are greater. Cutting the States' administrative 
funds by 60 percent is not only counterproductive, but 
undermines the positive changes in the legislation. Thank you.
    Chairman Castle. Thank you, Dr. Kister.
    [The prepared statement of Dr. Kister follows:]

  Statement of Dr. Joanna Kister, Educational Consultant, Columbus, OH

    Good afternoon Chairman Castle, Congresswoman Woolsey, and members 
of the subcommittee. Thank you for the opportunity to share my 
perspective on career technical education (CTE), and to specifically 
comment on H.R. 366--The Vocational and Technical Education for the 
Future Act. My remarks today are guided by over 30 years of working in 
the field of career technical education and my experiences as: Ohio's 
State Director for Career Technical Education, a member of the 
Independent Advisory Panel for the most recent National Assessment of 
Vocational Education, a classroom teacher, university faculty and most 
recently as an educational consultant. My current work focuses on 
providing technical assistance and leadership to schools in pursuit of 
closing their achievement gaps and improving the quality of their 
career technical programs. The goal of my work is help transform these 
schools into high performing educational entities that prepare students 
for success in both work and post secondary education.

Supporting the goals of H.R. 366
    Based on my work at the state and local levels, I firmly believe 
that H.R. 366 is sound federal policy that will benefit and advance 
career technical education. H.R.366 will increase options for students 
and ensure that the United States is able to meet the needs of its 
employers and economy. I support H.R. 366's goals to more fully develop 
academic, technical, and employability skills of students; the 
promotion of rigorous course-taking; and increased linkages between 
secondary and post secondary education. My remarks focus on and express 
my support for what I believe are the most progressive components of 
the bill: increased accountability, the simplification of funding 
streams, the establishment of model sequences of courses, and an 
expanded state role to support local program quality.

Accountability requirements
    My work in local schools has reinforced my strong belief that good 
data is an integral part of a high performing school system. Many 
schools are doing what they believe is right and is working. Their eyes 
are opened when first look at performance data. And when they see the 
gaps in student performance in the disaggregated data, the reality sets 
in. I have worked in schools in Ohio, Arkansas, California, New York or 
Texas; no matter how big or small the state or school is, no matter how 
urban or rural the setting, the data is a powerful motivator and driver 
of change.
    The accountability provisions in H.R. 366 will arm local programs 
with information necessary to make sound data-driven decisions. This 
data will identify areas of strength and weakness, thus allowing a 
continuous improvement plan based on fact rather than emotion or 
perception. These provisions will have lasting and deep impact in 
improving career technical education programs.

Technical assessments
    The first step to making good data-driven decisions is to have the 
data. The second step is to have good data. One of the biggest 
challenges in career technical education is measuring technical 
competency. The breadth of careers makes it difficult to synthesize the 
critical knowledge of all professions into a single test, as we do in 
academics.
    Curriculum aligned with assessment and professional development is 
the equation to quality career technical education. Today, we do not 
have one of these critical components--quality, consistent and 
comprehensive technical assessments for all major industry areas. We 
also do not have a consistent way to measure technical competency, 
within or among states, nor can we effectively measure the contribution 
that career technical education has in supporting academic attainment. 
The development of quality technical assessments is a key to measuring 
our progress toward closing our nation's skills gap. I encourage you to 
consider establishing an assessment fund in H.R. 366 that would support 
the creation of technical assessments aligned to the model sequences of 
courses.

Simplification of Funding Streams
    I am supportive of the integration of the successful features of 
the Basic State Grant and Tech Prep programs, as proposed in H.R. 366, 
into a more efficient, streamlined funding structure. As I work in 
schools across the country, I have seen Tech Prep become a silo within 
career technical education. It establishes the boundaries of the elite, 
defining those career technical students who are ``the ones'' going to 
college. In some cases, Tech Prep is even called College Tech Prep. 
These students have different academic requirements for graduation than 
regular career technical education students. In working with one school 
in Ohio, I found that Tech Prep students were taken on tours of college 
campuses and given guidance and class time to complete college 
applications, while non-Tech Prep career technical students were not 
given that opportunity. Federal policy should support the elimination 
of barriers to post secondary education, not create them.
    The changing labor market dictates that if we are to prepare all 
students for future success, they must be prepared for both post 
secondary education and the workforce. In the past, the paths to 
preparation for post secondary education and work were different. The 
American Diploma Project recently found that in fact these paths have 
converged and that college and work readiness are one in the same. H.R. 
366 will support states' progress is ensuring student success for both 
work and college.
    Tech Prep funding was established as seed money to spark change. In 
Ohio and across the nation, this funding was used to encourage 
conversation and collaboration between secondary and post secondary 
education, with the goal of increased student participation and success 
in college. Conversation among systems was initiated through Tech Prep 
funding and is probably its most visible success. This conversation is 
reflected in the form of articulation agreements. Unfortunately, 
articulation agreements vary widely in their value and utilization. The 
National Assessment of Vocational Education found that relatively few 
Tech Prep students take advantage of the Tech Prep articulated credit 
they receive. <SUP>1</SUP> Tech Prep also has failed in its goal to get 
more students to college. Again, according to the National Assessment 
of Vocational Education, Tech Prep students attend college at roughly 
the same rates as other career technical education students. 
<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ Silverberg, M. Warner, E., Fong, M., & Goodwin, D. 2004. 
National Assessment of Vocational Education: Final Report to Congress. 
Washington D.C: United States Department of Education, Office of the 
Undersecretary of Education, Policy and Program Studies Service. Page 
185.
    \2\ Ibid, page 194.
---------------------------------------------------------------------------
    While there are certainly Tech Prep successes can point to, its 
impact on systemic change has been limited. We should learn from our 
experiences and not perpetuate mediocre policy. The concepts that Tech 
Prep attempted to address are still important today--aligning secondary 
and post secondary instruction and preparing more students for 
successful post secondary education. These goals should be shared by 
the entire career technical education community and not just one 
segment. H.R. 366's integration of funding streams will not dilute the 
focus on or support for these goals, but instead will promote the 
alignment of the federal investment to a common vision of success for 
all.
    While I am supportive of the proposed restructuring of the funding 
streams within Perkins, I am concerned that there is not a loss of 
funding. Perkins funds have not kept pace with inflation or demand. I 
understand funding is not the jurisdiction of this Committee, but in 
light of the current conservative fiscal environment, the President's 
recent budget proposal and the pressures to reduce domestic spending, 
anything this Committee can do to ensure that the federal investment in 
career technical education is, at a minimum, maintained but more 
preferably increased, would be appreciated.

Model Sequences of Courses
    H.R. 366 will help improve and advance career technical education 
programs through implementation of model sequences of courses. As a 
framework for instruction, model sequences of courses can improve 
transitions between secondary and post secondary education by aligning 
coursework and reducing remediation. They will support the more 
comprehensive integration of academic and career technical studies and 
help broaden career awareness. Model sequences of courses can help 
educators establish consistent expectations for student performance and 
connect classroom experiences to student goals. The application and 
relevance of academic knowledge becomes apparent through model 
sequences of courses, and students become more engaged learners. 
Finally, model sequences of courses can reinforce the historic federal 
role of driving innovation, program improvement and quality in career 
technical education.
    As I have worked with schools across the country, the transition 
from narrow-job specific vocational programs to programs that reflect 
the modern workplace is occurring. These new programs like 
biotechnology, teaching professions, and logistics blend the lines 
between academic and technical instruction. These new programs prepare 
students with a broader, more durable and portable set of skills and 
knowledge. These programs often provide dual credit, thus supporting an 
effective transition between secondary and post secondary education. 
While there are many programs across the country that already meet 
these high expectations, all of career technical education should be 
embracing these goals. The requirements for model sequences of courses 
will help to expedite the transformation of more career technical 
education programs and thus will ensure that we are truly preparing all 
students for successful futures.

The Importance of the State Role in Local Program Quality
    There is one area in H.R. 366 that I would like to recommend a 
change--the amount of funds set aside for state administration. When I 
was State Director, my remarks on this issue would have been no 
surprise, as the restoration of state administration funding to 5% 
would have been perceived as self-preservation. However, my recent work 
with local programs confirms the valuable role that states have in 
driving innovation, ensuring quality programs, supporting local program 
improvement and the absolute necessity to fund these activities 
adequately.
    Local career technical administrators view their state agency as 
their partners in ensuring quality programs. They rely on the state for 
the provision of many supports that they could not afford otherwise. 
For example, states ensure an efficiency in scale through the 
development and implementation of curriculum, new programs, 
assessments, technical assistance, professional development, etc. 
Quality in each of these areas would suffer if local programs had to 
develop and pay for these services independently, thus further 
promoting disparities in quality within states (urban, rural, and 
suburban and well as areas of wealth and poverty).
    H.R. 366 provides states with more opportunities to exercise 
leadership to ensure the quality of career technical education 
programs. States are instructional leaders, as well as lead the charge 
to more systemically connect career technical education with workforce 
development, economic development and education reform. As I travel the 
country, where there is strong state leadership, quality programs exist 
in greater numbers, test scores are higher and student options are 
greater.
    H.R. 366 requires states to provide technical assistance to low 
performing schools. This is an important state role. My work with 
schools has proven the power of technical assistance. It ignites the 
reform process by spotlighting the weaknesses and providing the support 
to remedy these challenges. Technical assistance works. However, if you 
require states to provide technical assistance with a 60% reduction in 
administrative funds, you create an unattainable mandate. Worse yet, 
you hold out false hope to schools who need support. If the Congress is 
serious about closing achievement gaps, cutting the states 
administrative funds by 60% - the funds that will be used to provide 
technical assistance - is not only counterproductive, but seriously 
undermines the positive changes H.R. 366 proposes to strengthen 
accountability provisions.

Conclusion
    In conclusion, I applaud your leadership to develop legislation 
that supports a separate federal investment in career technical 
education. H.R. 366 builds on current successes, while also encouraging 
innovation in career technical education. Thank you again for the 
opportunity to be with you. I am happy to respond to any questions you 
might have and look forward to working with you to complete work on 
this important piece of legislation. Thank you.
                                 ______
                                 
    Chairman Castle. Dr. Ainsworth.

 STATEMENT OF DR. PATRICK AINSWORTH, ASSISTANT SUPERINTENDENT 
  AND DIRECTOR, SECONDARY, POSTSECONDARY AND ADULT LEADERSHIP 
  DIVISION, CALIFORNIA DEPARTMENT OF EDUCATION, SACRAMENTO, CA

    Dr. Ainsworth. Well, good afternoon. And thank you, 
Chairman Castle, Congresswoman Woolsey, members of the 
Committee, for asking me here to share some perspectives from 
California, and to support H.R. 366.
    I would also like to thank you, Mr. Chair, and members of 
the Committee, for your expressions recently of keeping this as 
a separate Federal investment. It is very important to all us 
of.
    Perkins is a crucial resource to California, promoting 
innovation in education, and supporting our State's economic 
development. California's Perkins funds serve more than 3 
million students and 663 local and State education agencies and 
109 community colleges.
    At the secondary level, Perkins has been the main vehicle 
for increasing the academic content and technical rigor of 
career tech ed courses and has supported statewide efforts to 
restructure high schools to improve student achievement.
    Now, at the postsecondary level Perkins has facilitated 
instructional innovation and development of programs in high-
demand and emerging technologies.
    I am going to concentrate my comments in four specific 
areas; first, this issue of integrating academics and technical 
instruction. Perkins, of course, has had that as an emphasis 
for some time, and I am proud to say that we have made 
considerable progress in this area. Over 8,000 high school 
courses and career tech ed courses are qualified for academic 
graduation credit, and 3,300 career tech ed courses meet the 
entrance criteria for entrance into the University of 
California.
    In 2002, the California Legislature required the 
development of Career Tech Ed Model Curriculum Standards 
mirroring the intent of Perkins. These standards defined the 
technical skills students enrolled in these programs should 
achieve and are specifically designed to support, reinforce and 
provide opportunities for integrating academic skills. We do 
not envision all career tech ed courses morphing into academic 
courses; rather, the vision is for schools to offer high-level 
career technical education courses that provide students a 
context for learning academics, and inspire them to stay in the 
high school and continue their learning. H.R. 366's model 
sequence of courses promotes the work we are doing, and we are 
in total agreement with that concept.
    State administration is area number 2. As you can imagine, 
and it has been articulately said by the previous 2 testifiers, 
that we just think that this proposed reduction in 
administration will derail the policy intent expressed in H.R. 
366. Cutting 60 percent of the administrative funding will 
result in significant loss of direct support to California 
schools and students.
    As you have heard, this adds much in the way of 
accountability and monitoring responsibilities for the State. 
We calculate that this would add another 5- to 6,000 separate 
negotiations that we will have to make with our locals, which 
will certainly be on top of everything else that is required in 
the bill. This reduction, we believe, is illogical and 
impractical. State administration must remain at 5 percent.
    We also believe that we need help in the large States with 
maintenance of effort. We would like to see a flexibility added 
in the maintenance of effort area in most of the large States 
that experience across-the-board State funding reductions which 
puts those States in jeopardy for losing the entire Perkins 
grant. We think that this is a crucial educational reform 
strategy, and we do not want to lose it because of a simple 
technical issue in the bill.
    Now, on diversity. I would like to talk--say that our State 
has a long-held tradition of deliberately serving special 
populations; in fact, in California's Perkins-funded programs, 
approximately 80 percent of all career tech ed students are 
defined in one or more special populations categorically. We 
annually set aside allotments from Perkins leadership funds for 
programs providing staff development and technical assistance 
related to special populations. In addition, our local planning 
process encourages local districts to use these funds to 
support the special populations.
    We believe that it is just very important that we keep this 
focus in the Perkins legislation, which would promote student's 
pursuing nontraditional careers, and we believe it is an 
important economic self-sufficiency and wise economic strategy.
    Tech Prep. We would again mirror the comments of the 
previous 2 in saying it is an important strategy in California, 
with 80 consortia, 109 community colleges, and 1,063 high 
schools engaged in this process. This is where collaboration 
occurs in California, and we really believe that whatever 
happens in this bill, we believe those principles underlying 
the Tech Prep concept need to be preserved and mainstreamed 
within the whole of the Perkins Act.
    So in conclusion, I appreciate this opportunity to testify 
before your Committee, and I look forward to providing any 
additional information you may need, and answer any questions.
    Thank you.
    Chairman Castle. Thank you, Dr. Ainsworth. We appreciate 
that.
    [The prepared statement of Dr. Ainsworth follows:]

   Statement of Dr. Patrick Ainsworth, Assistant Superintendent and 
    Director of the Secondary, Postsecondary, and Adult Leadership 
      Division, California Department of Education, Sacramento, CA

    Thank you Chairman Castle, Congresswoman Woolsey and members of the 
committee for the opportunity to offer testimony regarding H.R. 366, 
the Vocational and Technical Education for the Future Act, and to share 
the perspectives and needs of California. I am Patrick Ainsworth, 
Assistant Superintendent and Director of the Secondary, Postsecondary, 
and Adult Leadership Division, of the California Department of 
Education. Among my responsibilities, I am also designated as the State 
Director for Career Technical Education. California receives 
approximately $140 million annually from the Perkins Act, serving 
3,245,443 total students in 663 local and state educational agencies, 
and 109 community colleges.
    Chairman Castle and members of the committee, we also appreciate 
your recent comments supporting a continued, separate federal 
investment in career technical education. Perkins funding has been an 
important resource for improving career technical education. At the 
secondary level, Perkins funding has been a main vehicle for increasing 
the academic content and technical rigor of career technical education 
courses and has supported statewide efforts to restructure high schools 
to improve student achievement. At the postsecondary level, Perkins has 
facilitated instructional innovation and development of programs in 
high demand and emerging technologies. Perkins has proven to be an 
indispensable resource for improving career technical programs and 
supporting the economic development of our state. We believe that it is 
essential to retain Perkins' focus on improving career technical 
program performance and student outcomes and recommend that funding not 
be reduced, but increased over the next six years to foster higher 
student outcomes and increased economic development.
    My comments focus on four specific areas: (1) integrating academics 
and technical instruction, (2) preserving state administrative funds, 
(3) meeting the needs of a diverse population, and (4) Tech Prep.
Integrating Academics and Technical Instruction
    In the information and knowledge-based economy, it simply must be 
recognized that a strong academic foundation is necessary for all 
students emerging from high school. The skills necessary for entering 
postsecondary education are virtually the same skills necessary for 
success in the modern workplace. For example, students entering 
construction-related apprenticeship programs must have algebra, 
geometry and trigonometry skills, which are also requirements for entry 
into California's university systems. Career technical education, as 
with all segments of the educational system, must support student 
academic achievement.
    California has made considerable progress in fostering academic 
integration. Over 8,225 high school career technical education courses 
are qualified for academic graduation credit, and 3,336 career 
technical education courses met the entrance criteria for admission to 
the University of California. California has established over 290 
career academies that by design require academic integration. In 
addition, numerous small learning communities, thematic, and charter 
high schools, have formed in recent years that are organized around the 
concept of integrating career technical education and academics to 
increase the rigor and relevance of instruction.
    In 2002, the California Legislature required the California State 
Superintendent of Public Instruction to develop Career Technical 
Education Model Curriculum Standards. California's career technical 
education standards define the technical skills students enrolled in 
career technical education programs should achieve. The standards are 
specifically designed to support, reinforce, and provide opportunities 
for integrating academic skills. The standards do not envision all 
career technical education courses morphing into academic courses; 
rather, the vision is for schools to offer high-level career technical 
education courses that provide students a context for learning 
academics and the inspiration for continued learning.
    We believe that the legislation should promote academic 
integration, but not displace the primary role of career technical 
education to develop students' technical skills. H.R. 366's proposed 
model sequences of courses will promote more effective integration, as 
well as, improve the articulation between secondary and postsecondary 
education.
    The new legislation should support career technical education 
teachers whose courses are qualified for academic graduation credit or 
university entrance requirements. Agricultural Science, Engineering, 
and Health Professions teachers often have the equivalent knowledge and 
degrees of academic teachers, yet are typically considered unqualified 
under the No Child Left Behind (NCLB), Highly Qualified Teacher 
provisions. Through 2005, existing CTE teachers are being evaluated and 
qualified to deliver academic instruction under the High Objective 
Uniform State Standard of Evaluation (HOUSSE) provisions of NCLB. We 
recommend that the new legislation allow new career technical education 
teachers, many coming from business and industry, to take advantage of 
the NCLB HOUSSE provisions on an on-going basis. This approach would be 
similar to the provision in the recently passed Individuals with 
Disabilities Education Act (IDEA).

State Administration
    The proposed reduction in state administration from 5% to 2% will 
derail the policy intent expressed in H.R. 366. Cutting 60% of the 
funding will result in a significant loss of direct support to 
California's schools and students. H.R. 366 proposes an expanded state 
role in accountability and related technical assistance, including 
negotiating outcomes, monitoring local improvement plans, and holding 
additional hearings for low performing districts. We are supportive of 
these policy recommendations as they reflect a maturation of the 
accountability system, however, these activities are very staff 
intensive. For example, the proposed negotiation of performance 
measures with each local recipient equates to approximately 5,400 
separate negotiations every two years. We will be hampered in our 
ability to effectively carry out these new responsibilities if state 
administration funds are reduced. If this cut is enacted, California 
will only have enough capacity to distribute funds, collect data, and 
produce the required federal reports. This reduction is illogical and 
impractical. State administration funding must remain at five percent.
    Where we need help administratively is in adding flexibility within 
Perkins for meeting the annual Maintenance of Effort (MOE) 
requirements. Most of the large states have experienced across the 
board state funding reductions, which puts states in jeopardy for 
losing the entire Perkins grant. We request that Perkins be brought in 
line with the flexible maintenance of effort provisions within No Child 
Left Behind, the Individuals with Disabilities Act, and the Adult and 
Family Education Literacy Act, to allow a ten percent variation.

Diverse Populations
    California has an incredible diversity of ethnicities, languages, 
and economic levels among its people. One in four children are limited 
English proficient and almost half of California's working families 
fell below the Federal Poverty Level in 2002. According to a report to 
be released this week by Women Work!, California's single mother 
population has increased by 90% in the last decade, escalating the need 
for women to access quality career technical education programs that 
lead to high wage occupations.\1\ Within California's Perkins funded 
programs, approximately eighty percent of all career technical students 
are identified within one or more special populations categories. It is 
clear that Perkins is a vital resource in helping to serve these often 
disadvantaged populations within our secondary, adult, and community 
college systems.
---------------------------------------------------------------------------
    \1\ Chutes and Ladders: The Search for Solid Ground for Women in 
the Workforce, Women Work! February, 2005
---------------------------------------------------------------------------
    California has a long held tradition of deliberately serving 
special populations. We annually set aside an allotment from our 
Perkins leadership funds for programs providing staff development and 
technical assistance related to special populations. In addition, our 
local planning process encourages locals to use funds to support the 
success of special population students. As partners with the community 
colleges, we have established the California Joint Special Populations 
Advisory Committee to guide these efforts.
    In particular, we strongly support the efforts to increase the 
numbers of students enrolled in nontraditional occupations. Promoting 
students in pursuit of nontraditional careers is an important economic 
self-sufficiency strategy for the students of California, and a wise 
economic development strategy. Many employers in California have 
corporate diversity policies and goals that have led them to develop 
strong partnerships with local Career Technical Education programs to 
support the success of nontraditional students pursuing careers in 
their industry. They know that having access to a larger workforce pool 
is good business and we know it is good education.
    Additionally, investing state and federal career technical 
education funds in the educational attainment of single parents 
benefits families and local communities. Assisting low-income women to 
obtain job skills through career and technical education has a 
significant impact not only on their own well-being, but also on that 
of their children and other family members. Children whose mothers go 
back to school have higher aspirations, take education more seriously 
and work harder in school. And, when low-income mothers secure 
employment offering higher wages and better benefits as a result of 
their education, child poverty levels decrease.
    From that point of view, it is important to keep the current 
minimum special populations investments and the data elements contained 
within the current Perkins Act, and to provide state and local agencies 
with incentives to increase the investments that boost student outcomes 
within the special populations groups.

Tech Prep
    California has established 80 Tech Prep consortia encompassing the 
109 community colleges, 1063 high schools, 73 Regional Occupational 
Centers and Programs, and 352 adult education schools. Tech Prep has 
helped foster collaboration among agencies with the goal of increased 
student transitions to postsecondary education. Currently 338,429 
secondary and postsecondary students participate in Tech Prep and 678 
career pathways, institutionalizing course sequencing and 2+2 
articulation, have been established within the statewide consortia. 
This system building approach provides students with career guidance, 
training, and transition assistance to help them reach their career 
goals. Interestingly, the articulation model is spreading beyond career 
technical education into academic subjects.
    We believe the principles underlying the Tech Prep concept need to 
be preserved and mainstreamed within the whole of the Perkins Act. 
Course sequencing within and among the education systems allows 
students to make the transition necessary for success.

Conclusion
    I sincerely appreciate this opportunity to testify before your 
committee. We stand ready to assist you in crafting reasonable 
legislative language that increases accountability, provides for local 
and state flexibility, and helps bolster our nation's economy into the 
future.
                                 ______
                                 
    Chairman Castle. And, Ms. Simons, it is your turn.

 STATEMENT OF EMILY SIMONS, VOCATIONAL AND TECHNICAL EDUCATION 
        STUDENT, EASTERN TECHNICAL SCHOOL, BALTIMORE, MD

    Ms. Simons. Good afternoon, Mr. Chairman, Congresswoman 
Woolsey, and members of the Subcommittee. Thank you for the 
opportunity to share my positive experiences with career 
technical education in my high school program, and to express 
support for continued Federal support for such programs across 
the country.
    I am a senior in the allied health program at Eastern 
Technical High School in Baltimore County. Many Baltimore 
County high schools are organized as magnet schools, allowing 
students the choice of which school to attend, depending on 
their area of interest.
    You may ask, why choose to attend a technical school? Many 
people have a perception of career technical education that is 
for those students that are not interested in college or those 
who are not academically inclined, or even that it eliminates 
the options. These perceptions are wrong. I hope that by 
sharing my comments today will help change these perceptions 
and let others know how important career technical education 
programs are, and that they create opportunities and options, 
not limit them.
    I chose to attend Eastern because of my interest in the 
medical field. I knew that if I attended Eastern, what I was 
learning would give me a leg up on the career I wanted to 
pursue, and that the school would be fun because I was actually 
learning something that interested me. I actually enjoy getting 
up each day and going to school. My dreams of working with 
children or children in rehabilitation have been confirmed, and 
I am eager to begin my collegiate studies in health sciences.
    My allied health program is similar to what H.R. 366 calls 
a model sequence of courses. It is an organized set of classes 
that progressively connect and build upon one another. I 
understand the interrelatedness of academic and technical 
classes, and how what I am learning will be applied in the real 
world. For example, my English coursework helped me with 
medical terminology. Given all the Latin medical terms we have 
to learn, my grasp of prefixes and suffixes helped me dissect 
words. Knowledge of the human body, which I learned in my 9th-
grade anatomy and physiology class, along with other things 
that I learned and skills that I developed in my allied health 
courses, helped me obtain my CPR certification in the 11th 
grade. This certification is a valuable and necessary 
credential for anyone in the health profession.
    The allied health program has also helped with my study 
habits. I study not only to pass a test, but because there is 
information I would have to have readily accessible to treat 
patients.
    I understand the application of math because I know just 
how many and how important mental calculations are that 
professionals in the medical field have to make every day. 
These are decisions that people's lives depend on.
    One class in the allied health sequence of courses was even 
taught by a professor from a nearby community college. The 
professor came to Eastern to teach the course, which will be 
recognized for a credit at the postsecondary level. I will 
definitely have an advantage over the other students because I 
will not need to take this course in college, and it will save 
my family tuition.
    When I finish my allied health program and graduate, I will 
have completed a career technical program of study, one of the 
pathways a high school student can take to obtain a Maryland 
high school diploma. In addition, I will have successfully 
completed the required course to meet the university system of 
Maryland entrance requirements. And for the past 2 years, all 
of my classes have been Advanced Placement, which will be 
helpful in my college selection and admission.
    I have already been admitted to James Madison University 
and to Towson University, and am waiting to hear about the 
University of Maryland, College Park. I know I am fortunate to 
have the opportunities I have had at Eastern. I am better 
prepared for postsecondary education in the world of work, and 
as such, my studies and my career technical education program 
will have a lasting impact on my future. I have options and the 
confidence that I will be successful.
    While I am not an astute legislative analyst, what I 
understand of H.R. 366 is that it is a good policy that will 
dramatically increase the availability of high-quality career 
technical programs like the one I am in. The model sequences of 
courses concept is a good one, as it embodies all the elements 
of a quality career technical education program, again, just 
like the one I am in. This concept model sequences of courses 
will give more students access to quality career technical 
education, and quality career technical education will help 
prepare more students for success in college, careers and life.
    I have always thought the Federal Government's role is to 
enact policy that creates opportunities and eliminates barriers 
to success. In education, the Federal Government's role has 
been to ensure equal access to quality education. This piece of 
legislation achieves these laudable goals.
    In closing, I want to thank you for the opportunity to 
testify on behalf of career technical education. The 
opportunities I have been provided through the career technical 
education program at Eastern have definitely given me greater 
options for my future career. The opportunities for students in 
career technical education provided by Perkins can really make 
a difference in a young person's life. Specifically, model 
sequences of courses better prepare students for further 
learning and careers.
    Thank you for your continued support of career technical 
education.
    Chairman Castle. Thank you, Ms. Simons. That was excellent 
testimony. We appreciate you being here. You did a good job.
    [The prepared statement of Ms. Simons follows:]

Statement of Emily Simons, Vocational and Technical Education Student, 
                Eastern Technical School, Baltimore, MD

    Good afternoon Mr. Chairman, Congresswoman Woolsey, and members of 
the subcommittee. Thank you for the opportunity to share my positive 
experiences with career technical education in my high school program 
and to express support for continued federal support for such programs 
across the country.
    I am a senior in the Allied Health program at Eastern Technical 
High School in Baltimore County Maryland. Baltimore County's high 
schools are organized as magnet schools, allowing students the choice 
of which school to attend depending on their area of interest. You may 
ask, why choose to attend a technical school? Many people have a 
perception of career technical education--that it is for those students 
not interested in college or those who are not academically inclined or 
even that it eliminates options. These perceptions are wrong. I hope 
that sharing my comments today will help change these perceptions and 
let others know how important career technical education programs are 
and that they create opportunities and options, not limit them.
    I chose to attend Eastern because of my interest in the medical 
field. I knew that if I attended Eastern, what I was learning would 
give me a leg up on the career I wanted to pursue and that school would 
be fun because I was learning something that interested me. I actually 
enjoy getting up each day and going to school! My dreams of working 
with children or children in rehabilitation have been confirmed and 
maybe one day I'll even become a doctor or a physician's assistant.
    My Allied Health program is similar to what H.R. 366 calls a model 
sequence of courses. It is an organized set of classes that 
progressively connect and build on one another. I understand the inter-
relatedness of academic and technical classes and how what I am 
learning will be applied in the real world. For example, my English 
coursework helped me with medical terminology. Given all the Latin 
medical terms we have to learn, my grasp of prefixes and suffixes 
helped me dissect words. Knowledge of the human body, which I learned 
in my 10th grade Anatomy and Physiology class, along with things I 
learned and skills I developed in my Allied Health courses, helped me 
attain my CPR certification in the 11th grade. This certification is a 
valuable and necessary credential for anyone in the health professions.
    The Allied Health program has also helped with my study habits. I 
study not only to pass a test, but because there is information I have 
to have readily accessible to help my patients. I understand the 
application of math because I know just how many and how important 
mental calculations are that professionals in the medical field have to 
make every day--these are decisions that people's lives depend on.
    One class in the Allied Health sequence of courses was even taught 
by a professor from the nearby community college. The professor came to 
Eastern to teach the course, which will be recognized for credit at the 
post secondary level. I will definitely have an advantage over other 
students because I won't need to take this course in college and it 
will save my family tuition.
    When I finish my Allied Health program and graduate, I will have 
completed a career technical program of study, one of the pathways a 
high school student can take to obtain a Maryland high school diploma. 
In addition, I have will have successfully completed the required 
courses to meet the University System of Maryland entrance 
requirements. And for the past two years, all of my classes have been 
Advanced Placement, which will be helpful in my college selection and 
admission. I have already been admitted to James Madison University and 
to Towson University and am waiting to hear about the University of 
Maryland in College Park.
    I know I am fortunate to have the opportunities I have had at 
Eastern. I am better prepared for post secondary education and the 
world of work and as such, my studies and my career technical education 
program will have a lasting impact on my future. I have options and the 
confidence that I will be successful.
    While I am not an astute legislative analyst, what I understand of 
H.R. 366 is that it is good policy that will dramatically increase the 
availability of high quality career technical programs, like the one I 
am in. The model sequences of courses concept is a good one, as it 
embodies all the elements of a quality career technical education 
program--again just like the one I am in. This concept, model sequences 
of courses, will give more students access to quality career technical 
education; and quality career technical education will help prepare 
more students for success in college, careers and life.
    I have always thought the federal government's role is to enact 
policy that creates opportunities and eliminates barriers to success. 
In education, the federal government's role has been to ensure equal 
access to quality education. This piece of legislation achieves these 
laudable goals.
    In closing, I want to thank you for the opportunity to testify on 
behalf of career technical education. The opportunities I have been 
provided through the career technical program at Eastern have 
definitely given me greater options for my future career. The 
opportunities for students in career technical education provided by 
Perkins can really make a difference in a young person's life. 
Specifically, model sequences of courses better prepare students for 
further learning and careers. Thank you for your continued support of 
career technical education.
                                 ______
                                 
    Chairman Castle. I will now call on Mr. Moore. Perhaps Mr. 
Osborne can assume the Chair for a moment; I have to do a radio 
talk show and defend myself against all these attacks on things 
that we are doing.
    Mr. Moore, you are recognized for 5 minutes.

   STATEMENT OF RUSS MOORE, CHIEF EXECUTIVE OFFICER, CENTRAL 
                 EDUCATIONAL CENTER, NEWNAN, GA

    Mr. Moore. Thank you, Chairman Castle, Ranking Member 
Woolsey, and members of the Committee. Thank you for providing 
me the honor of testifying.
    My name is Russ Moore, and I am the CEO of Central 
Educational Center, a charter school in Newnan, Coweta County, 
Georgia, a suburb of Atlanta.
    My remarks will focus on the accountability provisions of 
H.R. 366, increased academic and technical rigor, and increased 
coordination between secondary and postsecondary education, all 
of which I believe our school is a model for.
    CEC and Coweta County are small; yet not unlike a mouse 
that roared, we have had an idea so tremendous, so powerfully 
different that the fruit of our 9 years of labor has brought 
CEC to your attention. Of critical importance to that model is 
the existence of vocational education, which I call career 
technical education, or CTE.
    The administration has caused quite a discussion, to put it 
mildly, with its recent call for the elimination of Federal 
funding for vocational education, which the Program Assessment 
Rating Tool has rated ineffective for the last three budget 
proposals. As a businessman I identify with the desire to show 
results for tax dollars spent; however, in my experience CTE, 
properly supported, administered and taught, is the most 
effective tool in our country's arsenal to help our children 
learn and to help our workforce compete in the global economy.
    Central Educational Center uses CTE and other programs, and 
is in a position to serve as a model, and a need for models is 
proposed in H.R. 366. We know that 60 percent of the new jobs 
in the 21st century require postsecondary education currently 
held by only one-third of America's workforce. This fact 
presents a real challenge to the Nation.
    My school was created around the beliefs, supported by 
data, that CTE is core to achieving academic and economic 
improvement. Further, CEC's founders were sure that the best 
way to increase the numbers of trained workers is to make sure 
they are trained at the postsecondary level earlier, preferably 
while in high school, through partnership programs with 
businesses and colleges.
    CEC's mission may be unique among public schools. It is 
simply to ensure a viable 21st century workforce. We opened in 
2000 after 4 years of study and design by a publicly appointed 
steering committee. That committee performed a needs assessment 
of local business and industry and designed our school in 
response to the data. The committee recommended that a seamless 
educational solution be provided to break down silos between 
academics and CTE, between high school and college, and between 
education and business. West Central Technical College has been 
an enthusiastic partner from the beginning, as has the Newnan-
Coweta Chamber of Commerce and the Coweta County School System. 
The committee recommended the school be a charter school, since 
that seemed to be the only legal and practical way to blend 
these entities into a single school with adequate flexibility 
and accountability.
    Today CEC has served nearly 5,000 team members, which is 
what we call students, who are pursuing high school diplomas 
and GEDs, technical college certificates of credit and 
associate degrees, continuing education, and customized 
corporate training.
    CEC is committed to continuous improvement.
    We use--and now that we are replicating, we teach--the 
design process described in Dr. Joe Harless' book, The Eden 
Conspiracy: Educating for Accomplished Citizenship.
    Today the results from our school are dramatic and 
significant. Last year the International Center for Leadership 
in Education and other educational organizations recognized CEC 
as a national model high school for our academic rigor and 
relevance.
    CEC can improve academic performance. Our team members 
passed Georgia's five academic graduation tests at the first 
sitting as often or more often than their peers who do not 
attend CEC. In addition, CEC's economically disadvantaged team 
members have a first-time pass rate better than their peers by 
between 4 percent and 19 percent on the same 5 tests. The 19 
percent was on the science test. At the time these results were 
generated, CEC did not offer core academic science classes. Our 
team members and their peers all took academic science classes 
at their base schools. But the CEC team members passed the 
science test at much higher levels.
    What was the difference? Well, there are many, and not just 
in science. CEC members take CTE and academic classes that 
impart academic content in an applied way. This is why in 
surveys students tell us they appreciate the relevance of their 
classes at CEC to their career paths.
    CEC offers dual enrollment with the technical college so 
high school students may earn simultaneous credit toward a high 
school diploma and college certificates and/or associate degree 
credit. The University of Georgia found that at least 98 
percent of high school students who dual-enroll also graduate 
from high school, 98 percent. Further, 100 percent of those 
graduates either find a job for which they are trained or go on 
to additional postsecondary education within 6 months, 100 
percent. We call that No Child Left Behind.
    One local accountability aspect of CEC's program is our 
work ethic assessment policy. Every team member at CEC earns 
two grades in every class, a work ethic grade and a course 
grade.
    CEC follows the progress of our alumni through research 
performed by Florida State University. Those studies and other 
data indicate that CEC is preparing students equally well for 
the workplace or additional college.
    And I would be remiss if I did not also mention that 
businesses partner with CEC. Our Work-Based Learning Program 
has 185 business partners who provide job shadowing, 
internships and apprenticeships to high school students.
    Thank you for the opportunity to testify, and thank you 
especially for your support of CTE for our students.
    [The prepared statement of Mr. Moore follows:]

 Statement of Russ Moore, Chief Executive Officer, Central Educational 
                           Center, Newnan, GA

    Chairman Castle, Ranking Member Woolsey, and Members of the 
Committee, thank you for the honor of testifying before you today on 
``H.R. 366, the Vocational and Technical Education for the Future 
Act.''
    My name is Russ Moore, and I am the CEO of Central Educational 
Center, a charter school in Newnan, Coweta County, Georgia, a suburb of 
Atlanta. It occurred to me as I was reviewing the witness list that, 
with the obvious exception of Emily, I am probably the only witness 
today who has never had budget authority of more than $5 million or 
supervision of more than 100 people, and yet I am talking to a 
committee that will vote on a program that costs our country between $1 
billion and $1.3 billion annually. I run a facility that some would 
characterize as just a small high school in a small county in between 
the massive urban center of Atlanta and the slumbering lowlands of 
Georgia's rural Piedmont.
    The truth is that Central Educational Center and Coweta County are 
small; yet, not unlike a mouse that roared, we have had an idea so 
tremendous, so powerfully different--and we worked so hard for nine 
years now to make it real--that the fruit of our labor has brought CEC 
to your attention. We are grateful for your time and interest in our 
model. Of critical importance to that model is the existence of 
Vocational Education, which I call ``Career and Technical Education'' 
or ``CTE.''
    The administration has caused quite a discussion, to put it mildly, 
with its recent call for the elimination of federal funding for 
``Vocational Education,'' which the Program Assessment Rating Tool has 
rated ``Ineffective'' for the last three budget proposals. As a 
businessman, I identify with the desire to show results for tax dollars 
spent, and I sympathize with the position to cut or reduce funding to 
poorly performing programs. However, in my experience, CTE--properly 
supported, administered and taught--is the most effective and necessary 
tool in our country's arsenal to help our children learn and to help 
our workforce compete in the global economy.
    Along those lines, Central Educational Center is doing many things 
with its CTE and other programs and is in a position to serve as a 
model--and a need for models is proposed in H.R. 366.
    A call for increased emphasis on academics is emphasized in H.R. 
366, with its provision for ``rigorous and challenging'' academic and 
technical education and ``model sequences of courses'' to further 
enhance coordination between secondary and post-secondary education. 
H.R. 366 clearly relates academic enhancement as being part of an 
ongoing effort to improve CTE.
    This Committee has called for greater state and local 
accountability and flexibility, but with this new accountability comes 
greater expense. I am in favor of increasing the administrative portion 
of state grant funds back to five percent. I believe this increased 
funding will help states better communicate program options, which the 
bill correctly identifies as being lacking.
    The publication, ``Educating America: The President's Initiatives 
for High School, Higher Education, and Job Training'' states, ``Sixty 
percent of the new jobs of the 21st century require postsecondary 
education held by one-third of America's workforce.'' This fact 
presents a real challenge to CTE teachers and administrative 
supervisors nationally. My school was created around the belief, 
supported by data, that CTE is core to achieving academic and economic 
improvement. Further, CEC's founders were sure that the best way to 
increase the numbers of trained workers is to make sure they are 
trained at the post-secondary level earlier, preferably while in high 
school, through partnership programs with businesses and colleges. They 
felt that since data clearly shows that the majority of jobs in our 
economy require training beyond high school but still less than a full 
four-year degree, providing that training by the age of 18 through CTE, 
dual-enrollment with the technical college and work-based learning with 
local business partners would be an ideal solution.
    I started with CEC as a business volunteer in 2001, then served as 
a member of its board of directors, and now I am CEO. Consistently, I 
have seen with my own eyes, and will document for you, that students in 
CEC's primarily CTE program find the curriculum to be relevant, and 
even though it is more rigorous than other options they could take, 
they voluntarily enroll at CEC because they like our program of study 
better. Our students make better grades at CEC, and they have better 
results on statewide, standardized academic tests than their peers who 
don't attend CEC.
    As for who may attend CEC, the answer is anyone in the Coweta 
County School System who registers to take core academic or elective 
CTE courses there. The academics are also offered at one of three 
``base'' high schools, but the CTE classes, by and large, are only 
offered centrally at CEC. For a more complete discussion of how CEC was 
started, I refer you to Appendix A.
    CEC's mission may be unique among public schools. It is simply, 
``to ensure a viable 21st century workforce.'' We opened in 2000 after 
four years of study and design by a public steering committee 
authorized by our school superintendent and school board. That 
committee worked for three years under the leadership of its chair, Dr. 
Joe Harless, and together they performed a needs assessment of local 
business and industry and proposed a school in response to the data.
    The data showed that our public schools were providing inadequate 
preparation in academics and work ethic ``soft skills.'' The data also 
ranked local professions most in need of skilled workers. The committee 
recommended that a seamless educational solution be provided to break 
down ``silos'' between academics and CTE, between high school and 
college, and between education and business. The local technical 
college (West Central Technical College) was an enthusiastic partner 
from the beginning, as was the Newnan-Coweta Chamber of Commerce and 
the Coweta County School System. The final decision reached by the 
committee was to make the school a charter school, since that seemed to 
be the only legal and practical way to blend the entities into a single 
school with adequate flexibility and accountability.
    Since receiving the charter in 1999 and opening in 2000, CEC has 
served nearly 5,000 ``team members'' (students) who are pursuing high 
school diplomas, technical college certificates of credit, credit 
toward technical college associate degrees, GEDs, continuing education, 
or customized corporate training.
    CEC is committed to continuous improvement. We use (and now that 
we're replicating, we teach) the design process described in Dr. 
Harless' book, The Eden Conspiracy: Educating for Accomplished 
Citizenship (1998), which can be described by the acronym ``ADDIE'' 
which stands for ``Analyze, Design, Development, Implement, and 
Evaluate.'' A key component of that process is that it begins by 
defining the ``end'' desired (in our case, employable high school or 
college completers) and designing backwards to determine what content 
is to be taught and how it is to be taught.
    Today, the results from this school are dramatic and significant, 
so much so that the International Center for Leadership in Education 
(ICLE), creators and co-sponsors of the Model Schools Conference, 
recognized CEC last year as a national model high school for our 
adherence to rigor and relevance and ``Quadrant D'' instruction (See 
Appendix B). This conference and dissemination of the model school 
studies are partially funded by The Gates Foundation.
    Now into our fifth year of instruction, CEC can make a fairly 
astonishing statement: Our team members, many of whom are on track for 
tech-prep diplomas (as opposed to college prep) pass Georgia's five 
academic graduation tests at the first sitting as often or more often 
their peers who do not attend CEC. In addition, CEC's economically 
disadvantaged team members (defined by free/reduced lunch status) have 
a first-time pass rate better their peers by between 4% and 22% on the 
same five tests. A 21% differential was realized on the science test, 
the passing of which our governor and state school superintendent have 
just made into a centerpiece of the state's new education reform 
initiative.
    At the time these results were generated (2003), CEC did not offer 
core academic science classes in biology, chemistry or physics. CEC's 
team members and their peers both took academic science classes at 
their ``base schools,'' but only the CEC team members excelled in 
passing the science test. What was the difference? The CEC team members 
also took CTE classes like health occupations, welding, machine tool 
technology, computer aided drafting, environmental science, 
horticulture, electronics, and broadcast video--all of which impart 
academic content related to science in an applied way, which research 
shows tends to ``stick'' better with students--something we call 
``transfer.'' The first-time pass rates on Georgia's High School 
Graduation Tests of CEC's team members are below:

[GRAPHIC] [TIFF OMITTED] T8782.001


    The performance of CEC's team members on these tests is local proof 
that CTE curricula can enhance academic performance. In surveys, 
students also tell us they appreciate the relevance of their classes at 
CEC to their career paths. Another possible impact on academic scores 
is the fact that CEC's ``directors'' (teachers) actively seek ways to 
teach using applied academics over general--another characteristic of 
CTE education.
    CEC offers dual-enrollment with the technical college, so high 
school students who are at least 16 years old may earn simultaneous 
credit toward a high school diploma and college certificates and/or 
associate degree credit. High school students also benefit from Tech 
Prep articulation agreements with the college. The University of 
Georgia found that at least 98% of high school students who dual-enroll 
also graduate from high school. Further, 100% of those graduates either 
find a job for which they are trained and/or go on to additional post-
secondary education within four months (See Appendix C).
    CEC may be unique among high schools in that we follow the progress 
of our ``cohorts'' (graduating classes). Florida State University has 
published research papers tracking the first two cohorts, and a third 
will be published soon (See Appendices D and E). Those studies and 
other data indicate that CEC's curricula and culture are preparing 
students equally well for the workplace or additional college. I 
encourage schools and school systems to take advantage of H.R. 366's 
provision for local accountability to add some kind of follow up to 
their local performance plans.
    Another local accountability aspect of CEC's program is our ``work 
ethic assessment'' policy (See Appendix F). Every team member at CEC 
earns two grades in every class: a course grade and a work ethic grade. 
The work ethic grade is based on a rubric of the following ten 
characteristics provided by the technical college.

    CEC Work Ethic Rubric (Characteristics):

    <bullet>  Attendance
    <bullet>  Character
    <bullet>  Teamwork
    <bullet>  Appearance
    <bullet>  Attitude
    <bullet>  Productivity
    <bullet>  Organizational skills
    <bullet>  Communication
    <bullet>  Cooperation
    <bullet>  Respect
    A climate of academic rigor is enhanced by linking attendance to 
final course grades, per our work ethic assessment policy. Absences 
above five per term count two points off the final grade, and tardies 
above two per term count off one point each.
    The higher expectations created by the above policy have a positive 
impact on academic performance. Following another principle of our 
precision design, that we should INspect for what we EXpect, CEC's goal 
is for 80% of all students in all courses to make a B or higher (our 
``80/80 rule''). This level is far higher than routine expectations 
found in the classic ``Bell curve,'' in which a C is average.
    As a charter school, CEC is, by Georgia law, also a non-profit 
corporation. Simply, we are a business, and our business is education. 
We are not in business to make money, but rather to enrich the learning 
experiences of our students and to be an economic engine of our 
community. The National Institute for Work and Learning (NIWL) of the 
Academy for Educational Development (AED)--which testified before this 
Committee last year--has studied CEC and published a paper entitled 
``Reconceptualizing Education as an Engine for Economic Development'' 
(see Appendix G). In that paper, AED describes one local company that 
made a decision to stay in our county, expand, and hire 300 additional 
workers (causing a minimum local impact of $75 million) because of the 
proximity and access to Central Educational Center and its training and 
retraining programs.
    Businesses also partner with CEC in much higher than usual numbers. 
Currently, we have 185 local business partners in our Work-Based 
Learning Program, providing job shadowing, internships, and/or 
apprenticeships to high school students. These team members always earn 
credit toward their high school diplomas, and some are also paid an 
hourly wage. To date, 470 team members have benefited from the 
internships and apprenticeships offered by CEC.
    Perhaps the most telling data about the relevance of CTE at CEC is 
the voluntarily reported satisfaction ratings of team members and their 
parents in different surveys. The 2004 National Study of School 
Evaluation reported that CEC's team members ranked CEC 4.19 on a scale 
of 5 for student satisfaction with their high school experience, 
compared to a 3.36 score identified by high school students who did not 
attend CEC. That is a 25% differential. I'm sure that you as elected 
officials would consider a 25% campaign margin to be a significant 
victory.
    In addition, Georgia's state school superintendent just released 
the results of a statewide survey of charter school parents. 70% of the 
voluntary respondents rated CEC as earning an A or an A+ for 
performance. 94% rated CEC a B or higher.
    I mention all these cultural and programmatic aspects of CEC 
because they are integral to how we teach Career and Technical 
Education, and without CTE, there would be no CEC. Without CTE, our 
students would not experience rigorous and relevant learning, or the 
opportunities that exist for them beyond high school in any number of 
post-secondary settings or in the workforce. Also of critical 
importance, H.R. 366 supports the professional development our teachers 
want and need to maximize the classroom experience for our students.
    My recommendation and request is that the committee continue to 
support CTE--properly funded, administered, designed, and taught. 
Support CTE taught by teachers who are properly trained, with schools 
that can afford the right equipment and that develop business 
partnerships. Academic performance, secondary and post-secondary 
connections, and model sequences of courses will prosper--as will 
national educational innovation that benefits students and American 
competitiveness in the global economy.
    Thank you for the opportunity to testify, and thank you especially 
for your support of CTE for our students.
                                 ______
                                 
    [Attachments to Mr. Moore's statement are located at the 
end of the hearing.]
    Mr. Osborne. [Presiding.] Thank you, members of the panel, 
for the excellent testimony. And I will now yield myself 5 
minutes for some questions.
    And I guess I would like to start with a general question 
here to start with. I would assume that many people here are 
very supportive of Perkins or they would not be here. And I 
would appreciate your comments on what effect you believe 
elimination of the Perkins grant program would have on our 
schools and our workforce.
    And I guess I will start with Dr. Atkinson, and anybody 
that has a thought, but let's move on down the line here, 
because naturally this is kind of on the front burner of this 
idea of whether we are going to maintain the program or not.
    Dr. Atkinson. Well, just a thought; but if we eliminate 
Perkins and take those dollars and put those dollars in a 
different reform effort, a high school reform effort, I think 
what we lose is this: We lose a balance in high schools that we 
have now.
    We have high schools in Delaware, in attempting to come to 
grips with math scores and reading scores and writing scores, 
are trying to find ways to give students a double dose of math 
during the course of the day. And what happens when you do that 
is you start to lose the context within which we need to do 
that. I believe that when you start to take Perkins off the 
table and take career and technical education off the table, 
what you lose is a context for a lot of students that helps 
them understand where they use those academic requirements.
    So I keep telling our teachers that if you want to--if you 
want that principal to support you in that building, show that 
there is good language arts in your classroom, there is good 
math in your classroom, there is good science in your 
classroom, and what you become is the extra time program during 
the course of the day, and I think we would lose that.
    Mr. Osborne. Dr. Kister.
    Dr. Kister. Thank you. I think that Perkins has provided 
research and development monies to improve the quality of 
career technical programs. While they might exist, I think they 
would not exist in the quality that we have now. We know that 
there is a strong return on investment for career technical 
education. We have worked, and I am seeing it happen across the 
country, to see integrated academics. I think career technical 
education teaches in ways that students learn best.
    We are having a great deal of concern about the drop-out 
problem now. There is strong empirical data that there is a 
relationship between students who enroll in career technical 
education and those who graduate.
    Dr. Ainsworth. I will approach it from a slightly different 
angle.
    In California our ed code says that high schools have two 
purposes; one, to prepare students for high education and 
training, and to prepare them for careers. It doesn't say 
either/or; it is and. And from that perspective Perkins has 
just been an invaluable resource, because when we look at high 
school achievement, high school achievement is down in 
California. There is no doubt about it. And as we have been 
talking with schools and working with them, we see them 
reforming into smaller learning groups, smaller learning 
communities, thematic high schools. And when we look at them, 
they have typically organized around a career-oriented theme. 
And Perkins has been this resource, kind of this glue in the 
middle, which has brought together the academics and the career 
to provide that context and that application, and it has really 
provided that reform steam that is behind our reform efforts in 
California.
    So taking the money from Perkins and putting it into high 
school reform doesn't help us at all. We would certainly 
welcome both, but we do not see that hurting Perkins and 
hurting career technical education is the way to improve high 
schools at all.
    Mr. Osborne. Ms. Simons.
    Ms. Simons. Well, even though I do not know the full 
logistics of the Perkins program, from a student's perspective 
I feel like it is beneficial for every student to experience 
this technical atmosphere. I mean, it gives the students a 
chance to decide whether they want to pursue what they are 
studying or not, and it provides it at no cost, it saves their 
family and themselves from wasting--well, wasting money in 
college because they are trying to decide what major to study.
    Mr. Osborne. I think that is a very good point.
    Mr. Moore.
    Mr. Moore. Thank you.
    I think Perkins is critical to the success of career and 
technical education in our country. I think without CEC there 
would not be--in our case a CEC--I think our team members would 
have a much more difficult time being fully able to experience 
rigorous and relevant learning. I think professional 
development for our teachers, which is critical to the 
classroom experience, would be severely limited.
    And there has been an assumption that I have noticed in 
statements, recent statements, because of the budget proposal 
that I am not totally--I am not sure where it comes from, and I 
am not sure--I am sure I disagree with it. It seems to be an 
assumption that because of perceived ineffectiveness of CTE, 
that their answer is to teach more academics in CTE. And my 
thought to that, as an administrator that runs a school that is 
mostly centered around those elective programs, I think CTE is 
a better way to teach academics, not the other way around, and 
that is my opinion. And that is one reason Perkins is so 
important.
    Mr. Osborne. Thank you.
    Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Ms. Simons, you are great. You might not be a legislative 
analyst; but neither are any of us, so do not kid yourself. You 
are the perfect example of what we are talking about today, and 
every one of the panelists knows this, and so do we.
    So I am going to ask the other four panelists a question, 
and the question is if the State administrative funds are cut 
by 60 percent, what will happen to the program that has made 
this outstanding young woman able to come here and speak her 
mind so positively to us today? And you do not need to just 
talk about her programs, but programs in your own areas.
    Let's start with you, Dr. Atkinson.
    Dr. Atkinson. I came to the Department of Education in 
Delaware in 1990, November 1st. Our staff was a director, eight 
professionals and support staff. Today we have a director, four 
professionals and the support staff that goes with that.
    I believe in doing more with less, but there is only so 
lean that you can get. And if you want us to interact with the 
field by e-mail and telephone and superficially, then cut our 
administration budget. But if you want rich, meaningful 
discussions with those programs so that we end up with 
wonderful testimony like we had today, then we need to have the 
State administration funds to accomplish that.
    Ms. Woolsey. Thank you.
    Dr. Kister.I gave the example that schools are telling me, 
when I call, no one is there. I was doing a technical 
assessment visit in a local school, and I was asking the 
teachers, you know, what they had in the way of recent 
professional development, were they aware that there were new 
certifications in their area, and they said, well, it used to 
be that the State provided regular in-services; you know, we 
had a consultant, and that person isn't there anymore.
    The other point that I would make is that 2 percent does 
not even pay for the mandated activities and the oversight that 
is required, let alone the fact that we believe we should be 
doing much more in the field of technical assessments. You have 
to have a technical assessment system and a way to administer 
that at the State level. That can't happen with 2 percent.
    Dr. Ainsworth. According to our analysis, if administrative 
funds are cut 60 percent, that we will end up with a bare-bones 
administration that only has the capacity to distribute the 
forms, to electronically collect the data and to produce a 
required Federal report. And that leaves out all technical 
assistance, all of the local monitoring, all of the things 
envisioned in this bill to improve the quality of career 
technical education across this country.
    And so we just think it is vital, that 5 percent; we 
believe that is the right number. Our agency has shrunk in 
career technical ed from 140 staff to 50. Now, that is a pretty 
remarkable reduction. And so cutting it again obviously reduces 
our capacity, so--thank you.
    Ms. Woolsey. Mr. Moore.
    Mr. Moore. I agree with the other witnesses. Tech Prep is 
very important. We are organized by consortia in our State, and 
I am in the unique position of having our Tech Prep coordinator 
for the State also be one of my parents. In fact, she moved to 
our community so that she could have her son attend our school, 
for which I am very flattered--you may perceive that as a 
conflict of interest, then, as I answer the question.
    However, it is very important, for Tech Prep to succeed, 
that it have adequate funding for two things that I consider to 
be critical for what we use it for and what to do better, 
frankly doing, and that is marketing and increased 
accountability. And the accountability is so critical. And I am 
very pleased to see that emphasized in the legislation as well. 
I think seriously doing that at the State level will be hard to 
do with less money.
    Ms. Woolsey. Thank you. I am not going to go into another 
question because we are going to run out of time.
    Mr. Osborne. Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman; and thank all of you 
for your testimony.
    In a former life I was on a school board in Illinois, and 
we had a very vivacious voc ed program, but this is quite a 
while ago, so I am not sure how this has changed. So I am 
wondering--because I am going out to visit several of these 
places over our break this month. But the way that it worked 
was to have several schools that were separate, you know, so 
that we could have the equipment and all the--the technology 
and state-of-the-art at that time that was needed to train our 
high school kids. And so they would have to take off, you know, 
from the schools, and some were quite a distance. And I am 
wondering if that is still true, that the way that you 
function, like in Georgia or in California.
    And also, you talk about the modeling consequence and 
trying to--we also have very rigorous academic programs, and I 
am wondering how students like Ms. Simons can fit all of that 
into 1 day, to be able to get the tech training as well as the 
core academics.
    Maybe, Dr. Atkinson, let me start with that.
    Dr. Atkinson. In 1990, in Delaware, we went away from that 
model. One of the things we found was that it was impossible to 
coordinate the academics with the career technical program, and 
that our students that were going to those centers back at 
their home high school were getting the lowest diet, the 
lowest-level courses and the fewest number of academic courses. 
So we went to an integrated comprehensive vocational high 
school. Now that high school is responsible for its own 
academics, and they can't push it off on anyone else. So that 
is how we have solved that problem.
    Mrs. Biggert. What about, then, all the--if you need high-
tech equipment, and how hard it is to keep up with that.
    Dr. Atkinson. That is precisely why we can't let this 
legislation get away from us. These are the funds that we use 
to keep those programs current ad expand those programs.
    Dr. Ainsworth. Now, in California we do just about 
everything; we have some centers, we have regional programs, 
and then we have school-based models.
    We really see that, in the modern economy, that the skills 
needed to enter postsecondary training and the skills needed in 
the modern workplace are pretty close together. And we believe 
that it is important for all students to raise their vocation--
or their academic level. And career technical ed is a great 
context for doing that, mining it forward. But how we do it, we 
leave it up to each district. And we have tried it all 
different ways. We are seeing some really interesting models 
evolving, as I mentioned before, in the smaller high schools, a 
redesigned model, rethinking what the modern high school is and 
bringing it into the 21st century.
    Mrs. Biggert. So the sequence of classes would really 
involve both the academic and technical; it wouldn't just be a 
program that they are working for a career.
    Dr. Ainsworth. Many people say there isn't enough time in 
the high school curriculum to do this and to do college prep. 
At the same time they complain that the senior year is a waste. 
Now those two things don't reconcile in my book. In fact, if we 
have time and if we bring in our post secondary ed partners and 
we work on different ways of organizing time in high school, I 
believe you can do both.
    Mrs. Biggert. Ms. Simons, you managed to take AP courses as 
well as your----
    Ms. Simons. Yes, I have. And I know our school has done a 
very effective job on implementing academic courses as well as 
your technical training. Our classes are 45 minutes long, it is 
a seven-period day. My Allied Health program is a two-period 
class.
    What Dr. Ainsworth said about senior year being a waste, 
our school has actually implemented that every student takes 4 
years of math, 4 years of science, 4 years of English, whereas 
the county rules state that you only need 3 years English, 
three maths and three sciences. Along with all of our other 
credits, we have to do a year-long senior independent project, 
which is based on our career major, or our technical program. 
It is also a graduation requirement for our school, and it is a 
year-long process, which we have to extend our career-related 
knowledge into our thesis, designed for application in the 
community.
    Mrs. Biggert. So you have kind of like, three class, four, 
so there would be four periods.
    Ms. Simons. Of academic classes?
    Mrs. Biggert. Three periods of academics.
    Ms. Simons. Would be five classes of academics, because it 
is a seven-period day with two periods designated for----
    Mrs. Biggert. So the other would be P.E.?
    Ms. Simons. Well, no, you don't have to take physical 
education.
    Mrs. Biggert. You don't have to take that. I don't see how 
you would have time, but thank you.
    Mr. Moore.
    Mr. Moore. Thank you for the question. We have done a 
slightly different model than Dr. Atkinson. Again, it works 
because we are a smaller system, perhaps, and a system instead 
of a state. We have a block schedule. We share our students 
with the base high schools, we have three of those high schools 
in our county. We therefore do have to get our students to the 
school and get them back. We at least offer that possibility 
through public transportation. They also most of them drive, 
about 85 percent. It works pretty well actually with our 
schedule.
    I mention we are on a block schedule, four blocks per day. 
We do mix academics with career and technical education. We 
provide some core academic classes, including this year for the 
first time in recent memory an AP class in chemistry.
    We also have all the work base learning for the community 
at our school. We don't have early release any more in our 
county. We have--we connected electives, so they have taken an 
elective to learn how to do the job, and then we connect them 
with the job and for the upper level internships and 
apprenticeships in those jobs they get paid. Plus we have the 
benefit of the feedback from the business community about how 
well they did, and that goes into their grade.
    Mrs. Biggert. So do you have any trouble with the equipment 
too? I mean, is it mostly because they are off campus then, 
would they need that type of training?
    Mr. Moore. Well, part of the strength of this model is with 
a centralized program you can save money by only having to buy 
once the equipment you need for all the students in the 
district. We have definitely realized savings and therefore the 
equipment is somewhat more modern.
    Also, that has helped very much by the interest and 
involvement of the business community, which, as I mention in 
my testimony, is participating at the level of 185 businesses. 
They don't just work with our students, they sometimes provide 
equipment and funds.
    Mrs. Biggert. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Castle. [Presiding] Thank you, Mrs. Biggert. Mr. 
Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Kister, you said something about stopping off points. I 
assume that means kind of reaching a dead-end in a program. In 
light of the fact that jobs in the future will be jobs in the 
information and technology area and in light of the fact that 
people, young people, would be expected to change jobs five or 
seven times during their career and in light of the fact that 
some students just wake up and do more than they thought they 
could do, can you say a word about the importance of 
emphasizing basic education in the vocational education program 
and not having stopping off points where they kind of reach 
that dead-end?
    Dr. Kister. Yes, Mr. Scott. My remarks were in relation to 
in some States that have created a distinction between tech 
prep and career tech, and it is a distinction at the expense of 
career tech. I strongly believe that tech prep is the model 
that we should follow in preparing students for a seamless 
transition from secondary to post secondary education. The 
principles of tech prep are right on.
    The problem is when you define some students as tech prep 
and other students as not. You are predicting the stopping off 
points and saying, you know, we are not going to prepare you to 
go on to post secondary. That was my point.
    Mr. Scott. And obviously that is not a good idea, 
relegating them to what is obviously a barrier to getting a 
college education if they happen to wake up later and find out 
they want to do that?
    Dr. Kister. Right. And I should say that not all States 
perhaps have created that much of a distinction, but the fact 
that we have to track tech prep students means that there is a 
distinction that has to be created.
    Mr. Scott. Thank you.
    Dr. Ainsworth, can you give us some examples of some of the 
programs and say how do you decide which programs you are going 
to have? Ms. Simons obviously figured out that Allied Health 
was a good area to go into. How do you know that you are not 
having to set up programs for careers that don't offer a lot of 
potential and that you are training people for jobs that exist 
somewhere in the community?
    Dr. Ainsworth. The way we are set up in California is that 
those decisions are made locally. Local school districts, 
regional occupation programs and others are required to have 
business advisory committees locally. Those business advisory 
committees are designed to keep those programs fresh to make 
sure that they are meeting the needs of the local economy.
    At the State level, our State plan and our State policies 
really focus investment and incentives on those new and 
emerging technologies in high demand areas. Our new career tech 
ed standards are designed in 15 industry sectors that have been 
studied as the areas that will grow over the next 20 years. So 
everything we do looks at that point.
    We do not want to create a whole new group of people that 
know how to repair Atari machines, you know. Those days are 
long gone. Those programs don't need to exist. What we need now 
are people with very flexible skills in information technology 
and healthcare, those sorts of areas that can move and change 
with that evolving economy. So that is how we do it.
    Mr. Scott. Is that process required under law, or you do 
that but others don't?
    Dr. Ainsworth. Frankly, I don't know about the others. I 
know that we do it because it is the right thing to do, and in 
California that has certainly been the focus of our policy. 
Within the former Perkins Act, it asks us to look at those 
sorts of programs that were emerging and met some sort of labor 
demand.
    Mr. Scott. Thank you. Dr. Atkinson, I think you mentioned 
that vocational education students in fact do better than 
regular education students. Could you say a little bit more 
about that and why that is so?
    Dr. Atkinson. Excuse me. The Delaware student testing 
program is the program that we are using, we use as our 
benchmark within Delaware, to assure that students are meeting 
our academic standards. What we have been able to do is to 
tease out the career and technical students and be able to 
compare their ability to meet our standards against all other 
students. In every case that we have teased them out, and that 
is in reading and in math and in science, they have done as 
well or better than the general population. When we talk about 
the general population, that doesn't include these students. 
They have been pulled out. So we are comparing this separate 
group of students with these.
    So it gets back to what we were talking about earlier, and 
that is these schools own their own academic programs. So that 
building principle is responsible for the academic rigor of 
those courses. Once you put the responsibilities there, you are 
going to get results.
    Chairman Castle. Thank you, Mr. Scott. Mr. Andrews is 
recognized for 5 minutes.
    Mr. Andrews. Thank you, Mr. Chairman. I would like to thank 
the witnesses for their participation today, and Ms. Simons in 
particular, you did a great job. I want to associate myself 
with Ms. Woolsey's comments. I know how hard it is to sit and 
testify like this. You were flawless and did a great job for 
your school. If I were the admissions people at the University 
of Maryland College Park, I think I would get that acceptance 
letter in the mail pretty quickly.
    The panel is, I think in many ways, preaching to the choir 
here. We believe in the Perkins program. We believe in you and 
in your students and in what you have achieved. But the reality 
is that we have a burden of proof to meet, or else there is not 
going to be a Perkins program this time next year.
    The President has proposed that the program be eliminated 
and folded into a sort of block grant, part of which would go 
to this expansion of the No Child Left Behind Act to high 
schools. The administration's budget document, I am going to 
read from it, says under the administration's program 
assessment rating tool, called APART, vocational education was 
rated ineffective because it has produced little or no evidence 
of improved outcomes for students despite decades of increasing 
Federal investment.
    It is our burden to dispute that assertion. I do not 
believe it, but I would like any of you on the panel to point 
us toward a body of evidence that would help us refute it. It 
is a little bit of a straw man they have set up here, because 
how can you measure what would have happened without Perkins 
when we had Perkins for the last several decades.
    But what--if you had to boil down your response to that 
argument in a sentence or two, I would like to hear each one of 
you tell me what that sentence would be. Maybe, Mr. Moore, you 
could start.
    Mr. Moore. I would be glad to. Ask me that last little bit 
one more time if you will, the sentence.
    Mr. Andrews. If you had to boil down your response to the 
passage that I read that said that vocational education is 
ineffective. In effect, it doesn't make any difference whether 
we spend money on it or not, that the results are not altered. 
What's the answer?
    Mr. Moore. Well, clearly the results at my school, and I 
have the advantage of being over a school and being very 
focused on the results of that school, which I do focus on like 
a laser, I can tell you that our results are outstanding, and 
those results are very directly related to the support that we 
have received as a community through the Perkins funding.
    Mr. Andrews. Specifically, what was happening to the 
student population before you were here in 1999?
    Mr. Moore. Right.
    Mr. Andrews. I think when you got started. What has 
happened since then?
    Mr. Moore. Great question. SAT scores have gone up. The 
dropout rate has fallen 42 percent in our community--county. We 
have blended academics and by offering college instruction at 
the high school level we have raised the academic bar. And we 
find, among the test scores, which are traditional measures, 
and again in my testimony, I referenced graduation test scores 
that are higher in some cases, significantly higher.
    Mr. Andrews. What about job placement? Those are all very 
meaningful. What about job placement?
    Mr. Moore. That is the measure I like the best, job 
placement. We are finding that students in our work based 
learning program are being offered jobs by the people for whom 
they have worked while they have been in high school.
    Mr. Andrews. Ms. Simon, or Simons. I am sorry.
    Ms. Simons. It is Simons.
    Mr. Andrews. Ms. Simons, I think your presence here is 
pretty good argument against those assertions, but do you have 
anything you want to add to that?
    Ms. Simons. Well, I just want to say that I completely 
disagree with President Bush's statement. I don't see any 
validity behind it, and I think if you look around you see the 
percentage of test scores have increased, and as a student I 
feel more focused.
    Mr. Andrews. This is a great country, isn't it? Keep going, 
I think you are doing great.
    Ms. Simons. And as a student I feel more focused than 
compared to other students who don't participate in a career 
technical program.
    Mr. Andrews. Great.
    Ms. Simons. I know what I want to do and I know how to do 
it. So.
    Mr. Andrews. Pretty good answer.
    Dr. Ainsworth.
    Dr. Ainsworth. Well, first of all, we don't agree with the 
numbers the President presented, the numbers that were 
collected before the 1998 act even went into effect. I think 
you have to take fresh numbers, you have to get recent numbers. 
You have to measure the effect that has occurred since then. 
And since 1998, you know, somebody has described changing 
education like moving a graveyard. It is very difficult to move 
entire systems.
    Mr. Andrews. Very unfortunate.
    Dr. Ainsworth. Yes, you know--can I take that, retract 
that?
    Mr. Andrews. Yes, let us do a better one than that.
    Dr. Ainsworth. But it is very, very difficult. Change 
occurs over a longer period of time with sustained efforts. We 
have had that sustained effort, and we are starting to see that 
benefit. So why, why move out of that? Why not continue that?
    Mr. Andrews. My time is exhausted, but I would just ask our 
other two witnesses briefly if they could cite us to a source 
of evidence or supplement the record in writing with data that 
would refute that claim.
    Dr. Kister.
    Dr. Kister. Yes, I would cite the High School Work 
Assessment, which is about 54,000. It is a robust data base 
that shows where there are quality career technical programs 
there are increased academics on the part of the students. 
Also, in Arizona, the career technical students actually 
outperformed the regular students on the Ames test, on their 
State test.
    Mr. Andrews. What about job placement?
    Dr. Kister. I think the States collect data on job 
placement. It is clearly greater. Also John Bishop's study from 
Cornell University shows a 20 percent return for investment for 
labor market.
    Mr. Andrews. You picked my alma mater, you picked the right 
school. Dr. Atkinson.
    Dr. Atkinson. The one-liner would be that we found in 
Delaware when we tease out dropout data on career and technical 
students, they drop out at half the rate of the normal 
population. You have to be in school to learn.
    Mr. Andrews. I am going to conclude, but I--you know, one 
of the other things the President said in the State of the 
Union address quite admirably, he will ask the First Lady to 
lead an anti-gang initiative. I would argue Perkins is an anti-
gang initiative. If you are reducing drop-out rates, you are 
certainly reducing gang membership and gang violence.
    Thank you very much to the panel.
    Chairman Castle. Thank you, Mr. Andrews.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman, and 
thank you to all of you and, Ms. Simons, I enjoyed your 
testimony as well.
    I wonder if we could follow up on Mr. Andrews' questioning 
as well. I happened to serve on a school board many years ago, 
San Diego Unified. Actually at that time we did cut out some of 
the programs, some of the magnet programs that were much more 
in that time considered voc ed or less career than programs are 
today. But I know that they are looking to really increase the 
number of programs in that area, and they have been very 
successful in terms of the partnerships with the community, 
which is another aspect that is very important.
    But where do you think that Perkins has fallen down in 
terms of evaluations? Where--in some ways, you know, what is 
the President focusing on in terms of these numbers? What kinds 
of numbers, what kinds of evaluations? Would it have made our 
case a little bit better?
    The other question would be about disaggregating the data, 
because my understanding is that the bill would improve on that 
disaggregation, and part of my question is why weren't we doing 
that? And what do you think that that would add to the 
discussion and strengthen our hand in preserving the programs?
    Dr. Kister. I think that what is really needed is a system 
of technical assessments. That is the data that we don't have. 
The NAVE panel highly recommended that for the next round so 
that we have some benchmarks to know how students are doing.
    There was another--I wanted to add to my answer on the 
research. There is a very strong piece of research by Stephen 
Planck with the National Center for Career Technical Research 
that shows that the lowest rate of dropping out occurs when 
students complete three units of career tech for every four 
units of academic subjects. It was a very rigorous study, which 
supports at risk--the value of vocational education to at-risk 
students.
    Mrs. Davis of California. OK.
    Dr. Atkinson. It is difficult to answer the question why 
haven't we done something, you know. If we could go back in 
time, I think we would do a couple of things. It took us a long 
time to just get data comparable State to State, just 
definitions comparable State to State.
    At one time in my State if you took a course you were in 
the pot, you were a vocational student and it took us a while 
to get to the point of where a vocational concentrator was, 
that they are taking a series of courses that is making sense, 
that is leading in a direction that the academics can play off 
of. Unfortunately, it is difficult for us to go back and say 
why didn't we see that earlier.
    Now we have what is in front of us, and I think we need to 
move forward but I think we need to work off of what Dr. 
Ainsworth said. We need current data. Let us not do this with 
data that was in the last decade. So we do need to get our act 
together a little bit better as to how we define and to make 
our data comparable.
    Mrs. Davis of California. Thank you. I certainly appreciate 
that. We always wish that we had the hindsight at the time.
    But when you are speaking to the data that we need 
available to us, you know, where is that? Why aren't we tapping 
into that then, and how can we do a better job with it? I am a 
little perplexed as to why it is such old data.
    Dr. Kister. Perhaps I could add to the statement on 
technical assessments. There are some States that are doing a 
very good job with a statewide system of technical assessments, 
but they have funded that themselves from the State. New York, 
Pennsylvania, Virginia are States that require students to have 
either an industry certification or pass a nationally 
recognized employer exam or an exam that has been verified as 
employer competencies. There are some States that have their 
own State systems. Ohio, Oklahoma, North Carolina would be 
examples, but they are not necessarily nationally a benchmark. 
But it is very expensive, I think, to make that happen.
    But the other point I would make is that your legislation 
is suggesting a model sequence of courses, and that that really 
is meaningless unless you have the assessment piece for that.
    Dr. Ainsworth. One of the important issues in California is 
that we have difficulty tracking students from secondary into 
post secondary education, because of the restrictions in FEPRA, 
Family Education Privacy Rights Act. Taking data and comparing 
Social Security numbers with our base wage file over time, we 
just are not allowed to do that in California. Privacy is just 
an important issue, especially at the secondary level. That has 
proven to be a tough one to get around. If this law said you 
are allowed to do that, that would give us a new source of data 
that would allow us to track students and find out what their 
outcomes were without violating their privacy.
    Mrs. Davis of California. Disaggregating the data so that 
we know how different groups perform?
    Dr. Ainsworth. I think we would have a, you know, much more 
rich data base. We would be able to look across the board and 
have statistics that disaggregate that and show what these 
student outcomes are 5 and 10 years after the fact.
    Mrs. Davis of California. Thank you.
    Chairman Castle. Thank you, Ms. Davis. I will yield 5 
minutes to myself. I missed my turn first time around. I wasn't 
going to ask this, but I am sort of interested in the technical 
assessments, because maybe I don't quite know what a technical 
assessment is I have decided after hearing this discussion. But 
I assume it is some sort of assessment of technical education.
    I mean, I know, Dr. Atkinson, in Delaware, for example, we 
have a lot of credit card companies and some of the schools 
have aligned themselves with that in terms of their computer 
training and education. I go to these schools, and I see a 
whole variety of different things that they are doing. Some of 
it is rather interesting and innovative and not what I might 
have expected to see. It is not just putting together engines 
or whatever it may be in motors and a lot of other stuff.
    So I understand they--and I am big on standardized testing. 
I understand NAVE testing in terms of traditional English, 
math, science, history type thing. But when you get into 
technical assessments, Dr. Kister, can you do that on a 
nationwide basis, or can you only do it pertinent to a certain 
geographic region or part of a State or full State or something 
of that nature? Can you really develop something that would be 
truly meaningful? I mean, I like the idea of doing it, but I 
just see the complexity of doing it.
    Dr. Kister. I would give examples that almost every State 
uses the ASE, the automotive test for students, because an 
automotive technician in Ohio is pretty much the same in 
California, I think, Dr. Ainsworth. There are a lot of tests, 
for example.
    Chairman Castle. Drive a lot of convertibles in California.
    Dr. Kister. Microsoft Office Specialist, you know, the 
industry certifications, you know, those are portable from 
State to State, which is an advantage of that.
    Chairman Castle. There are some specialized things. My 
point is there are specialized vocational activities going on 
out there, more so than an academic, at least from what I see, 
pertinent to the area.
    Dr. Kister. Well, I think there are ways you can modularize 
if there are some differences, because I work in, you know, 
urban areas, rural areas across the country. So for the most 
part at the assessment level, I really do believe that you 
could have a national benchmark assessments that may have some 
modifications.
    The National Occupational Competency Testing Institute are 
the tests that are used in New York, Pennsylvania and Virginia. 
They basically supplement where there is not an industry 
certification. There are some differences. Like in criminal 
justice there are some State license rules that----
    Chairman Castle. You know, not to cut you off, that is my 
sort of concern too. I mean, you know, you do these differently 
in different States. You may deliver healthcare differently. 
You may deliver cafeteria food differently. You may do computer 
work differently depending on the economics of your State or 
whatever. That is why--I am not fighting you because I think it 
is a good idea. I just am not 100 percent confident----
    Dr. Kister. The other thing, I believe you are aware of the 
16 career clusters that we have been organizing over the past 
few years, and we have been doing a lot of developmental work 
on knowledge and skills statements. But we also hope to be able 
to have assessments at the cluster level, which I think would 
address your issue.
    Chairman Castle. Let me move on to something else.
    I would like to ask, if I could, where you all are on this 
particular legislation. These kinds of hearings that we are 
having basically are in preparation for marking up and 
considering legislation on the floor. So I am very interested 
in your thoughts on the legislation itself. I don't need to 
hear about the state of administration too much. I think I have 
pretty well heard of about that. Although I will say looking at 
these percentages in certain other areas in recent 
reauthorizations, Title I is 1 percent reading for State 
grants; 2 percent State grants for improving teacher quality; 1 
percent, Title II education technology; 3 percent, safe and 
drug free schools. So they are different for different areas. 
And, you know, chances are you will get some of it restored 
anyhow. But at some point--but the point I am making is I 
understand your point with respect to that.
    The other thing I sort of gleaned from all of this is this 
whole business of tech prep, which we are sort of merging in 
here. My sense is that tech prep has some positives, you all 
said, a couple of you said, the principles of tech prep are 
good. Didn't exactly say tech prep is off the wall good but the 
principles of it were good. So my sense of it was that is not 
something that you think is working perfectly.
    My question is, is there anything else in 366 that is 
either in or not in that you think we should be paying some 
attention to as we go through a markup? What will happen is we 
will mark it up, I guess in the Subcommittee, then the Full 
Committee, and then it will go to the floor of the House, same 
thing will happen in the Senate, as it goes forward as we 
expect. So we need to get that input sooner rather than later. 
I am just throwing it out, any suggestions you either didn't 
want to mention or emphasize first time around.
    Dr. Atkinson. Well, it is an area we haven't spoken to--and 
that is in the last reorganization we had a set-aside for 
corrections, it was a 1 percent set-aside. In Delaware that is 
$48,000. It is not worth cutting the check. We either have to 
have flexibility to be able to expand that out or we need a 
set-aside. We need a set-aside that is meaningful. Now, I know 
you don't like set-asides. I can understand that. I wouldn't 
want----
    Chairman Castle. But I would like small State minimums. You 
would understand that.
    Dr. Atkinson. Small state minimums are good. When you look 
at the money that we have there, 1 percent, it is almost--it is 
difficult to do anything meaningful with it. If we are going to 
have set-asides, let us have set-asides with a little oomph to 
them would be my suggestion.
    Chairman Castle. Other comments based on the legislation 
itself? Anybody have any thoughts or suggestions on that?
    I assume you are familiar with it and you are pretty 
supportive of it. There might be little things you would differ 
with but you are pretty supportive of it. Is that basically 
correct?
    By the way, feel free to contact us after the hearing if 
you need a little more time to review that. Mr. Moore wanted to 
say something.
    Mr. Moore. I would say it is very difficult to legislate 
the interest and involvement of the business community. I think 
the legislative language that is used in H.R. 366 is 
appropriate, and I support it wholeheartedly, that clearly 
would create a situation that businesses would be encouraged to 
get involved and stay involved. That is one of the things that 
we have found is just critical to the way our school is run. It 
is a partnership. It has to be there. The funding that is 
provided through the Perkins takes care of some problems and 
some things we need to take care of that make us good enough in 
a way that the businesses are more interested. It is very 
helpful.
    Chairman Castle. Thank you.
    At this time I am going to turn to--Ms. Woolsey had a 
further question or two to ask. I think Mr. Scott might want to 
ask a question or two. We will see if anyone else does and we 
will wrap it up after this round.
    Ms. Woolsey. I don't remember which one of you said that 
this Committee could not spend the money. And, we can't. But 
the truth of it is we authorize, and if it isn't in our 
authorization it isn't going to be there. We can authorize the 
5 percent, which we ought to. If it doesn't get to be 5 percent 
in appropriations, then we have to fight them for that, but it 
won't get there at all if we don't say so.
    So I wanted to say that. Then I have another question about 
diversity and special populations. What are you seeing in these 
good programs? Are we seeing a good mix of male/female, 
ethnicity, economic backgrounds? What are you seeing? In your 
school, Emily, how many females are in your program? Is it 
pretty even?
    Ms. Simons. Well, in the Allied Health program, there are a 
lot more girls than there are guys. But there are some guys, I 
think about five. But that is just--but the students choose 
before they go into it what they wanted to do. So I don't think 
it was unfair. I just think that is the way it happened.
    Ms. Woolsey. Well, that would say, good, they are not 
eliminating females. But are there other programs that are 
pretty balanced? That is what I want to know from all of you. 
Mr. Moore, your program?
    Chairman Castle. Ms. Woolsey is fighting for male equality.
    Ms. Woolsey. I actually have a bill called Go Girl to help 
girls stay more interested in science, math and technology.
    Mr. Moore, how about your school?
    Mr. Moore. In my written testimony, if I may refer you to a 
chart, on page 7, we have broken down, this is statewide 
graduation tests, these are academic tests, and we are talking 
about academic tests taken by students who are attending a 
school that is predominantly--in terms of the pure number of 
courses taught, predominantly CTE focused.
    Now, that is not a characterization of what we care about. 
We care about the blending of academics with CTE. But you can 
see--and it talks about gender and it talks about race, it 
talks about economically disadvantaged. That is probably the 
one I am the most proud of, is the significantly higher 
performance on these academic tests of economically 
disadvantaged students.
    Ms. Woolsey. Good, thank you.
    Dr. Ainsworth.
    Dr. Ainsworth. As I look around our State and look at our 
numbers, certainly the vast majority of our students fall into 
a special population. The Category 1 study that was completed 
on a regional occupational centers programs showed that 
oftentimes those students enrolled in those programs start at a 
lower level academically, but by the time they graduate end up 
at a commensurate level with a control group of the general 
population.
    We really try and focus on this area. But in the area of 
nontraditional jobs it is something you have to work at. As I 
look around the State, if we don't keep the pressure on our 
programs to really consider nontraditional occupations, 
suddenly we have no girls in automotive programs and the boys 
aren't going to some other traditional female programs in 
nursing and those sorts of things.
    It is something where we deliberately work on this. We hold 
statewide staff development. We have joint efforts with our 
community college system, materials produced. It is some--you 
get what you invest in. We think it is an important thing to 
continue our investment in California.
    Ms. Woolsey. Thank you.
    Dr. Kister. I would just say that I am going to come back 
to State role and technical assistance. I think that is the way 
we maintain that, to monitor and track and keep it on the 
table.
    Dr. Atkinson. I would just say our schools are diverse but 
some of our programs struggle. Construction is an extremely 
tough sell to many of our women. Some of the very traditional--
what have been traditional female roles have been tough sells 
to the guys. It is a matter of being eternally vigilant. We 
have to be in there all the time. That is where State 
leadership comes in, as Joanna said, and where State 
administration comes in.
    Ms. Woolsey. Thank you very much.
    Chairman Castle. Thank you, Ms. Woolsey.
    Mr. Hinojosa has returned, and perhaps before Mr. Scott's 
questions we could go to Mr. Hinojosa's first round of 
questions.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I would like to ask Dr. Lewis Atkinson of Delaware a 
question. In your testimony you mentioned that the dropout rate 
for career and technical students is half of that of all high 
school students. What I have seen is that we have about 30 
percent that has been dropping out of high schools and yours 
must be 15.
    What are some of the strategies employed at the technical 
high schools that account for that difference?
    Dr. Atkinson. I think the major connection there is that a 
student is connected with something day in and day out that is 
important to them, and it is a career and technical program. I 
mean, they have chosen that program. They have chosen to be in 
that school for that program, and that is the glue that holds 
their day together.
    I would argue that all students and all high schools should 
have some kind of a major. Maybe it is not career and 
technical, maybe it is fine arts, maybe it is humanities, but 
there should be some reason, some glue that holds those 
children to that school every day.
    Most high schools, you take seven--at Eastern it is a 
seven-period day, you take seven disparate courses. What is the 
glue that holds me together here? I just go in and check off a 
box each period and off I go. So I think what has really helped 
us in our career and technical areas is that there is a focus 
every day. Again, I would argue it doesn't have to be a career 
and technical focus to hold students, to have holding power 
over students. It could be a humanities focus, but this career 
and technical program is a focus that has holding power.
    Mr. Hinojosa. Thank you.
    My next question is to Dr. Ainsworth, California. Dr. 
Ainsworth, please tell us a little bit about the work of the 
Joint Special Populations Advisory Committee. In particular, 
could you share recommendations that have been implemented for 
our limited English proficient or migrant student populations?
    Dr. Ainsworth. Yes, our joint committee has been fairly 
unique, I think. We formed this in response to the elimination 
of the set-aside in the previous act because we wanted to keep 
a focus on this, and we wanted to do it system-wide from 9 
through at least the community college. That committee was 
expected by some to just wither up after a couple of years, but 
in fact the opposite has happened. It has become kind of a 
silent force in California.
    This past week we had a conference with some 400 people 
there on this issue. In tough budget times, with all of the 
other things going on in education, it amazed me that many 
people would come to Sacramento and participate.
    The focus of that session was on understanding immigrant 
populations, the needs of immigrant populations, and the kinds 
of strategies that work with immigrants, both the language 
strategies as well as the other strategies, the attitudinal 
issues with the staff. It is growing to understand the cultural 
issues in these schools. English learners is a big problem in 
California--big issue--I shouldn't say a problem--it is a great 
opportunity for California. One in four students are English 
learners.
    In fact, we have intervention programs in academics, and in 
the career technical area, we are looking at what kinds of 
interventions can we provide there. So vocational ESL is one of 
those strategies where we are actually taking those skills. We 
are learning in English, learner specialties and pairing them 
with vocational and having the students learn their English 
within that vocational construct.
    I think that is really an interesting way to hook people 
into something, gives them a horizon that they can look forward 
to and gives them a real tangible way to apply their language 
skills.
    So we really believe that committee is central in 
California. We are very proud of it, and we would welcome 
sharing any more information with you.
    Mr. Hinojosa. Well, you obviously have a lot of hope that 
it can work.
    Dr. Ainsworth. Yes, sir.
    Mr. Hinojosa. Can you tell me if they have any dual 
language programs in conjunction with these vocational 
programs?
    Dr. Ainsworth. Right off the top of my head, I couldn't 
answer that. I don't know for sure. I will tell you this, that 
our recent language tests came out, and there was a substantial 
gain in our State's performance among English language learners 
in moving to higher proficiency levels in English, which I 
think is a concerted effort on behalf of all of the education 
systems.
    In terms of dual language programs in the vocational area, 
I would have to get back to you on that one.
    Mr. Hinojosa. Last, can you tell me if they are being 
tested only in English, or do they have testing tools that are 
also in Spanish?
    Dr. Ainsworth. Our State test is an English test. It is 
specifically designed to look at their English skills, so they 
are tested in English and not in Spanish.
    Mr. Hinojosa. Thank you, Mr. Chairman. I return the balance 
of my time.
    Chairman Castle. Thank you, Mr. Hinojosa. You had no 
balance of your time, sir.
    Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I just had one 
additional question, in light of the President's proposal. I am 
not sure any of the witnesses would have an answer to either of 
them. But if we eliminated the Perkins program for high school 
students and melded it into the No Child Left Behind, what 
effect would that have on economically disadvantaged students 
and what would it do to figuring out what a qualified teacher 
is?
    Dr. Ainsworth. You know, there is a lot of pressure in this 
high stakes accountability world upon school districts to meet 
the numbers. Certainly that has resulted in the closure of 
career technical education programs. There is no doubt about 
it.
    If you are facing a situation where you have got a high 
cost program and you have a number of students that aren't 
proficient in English or testing at a low level, school 
districts have been forced to make tough choices. Shifting this 
money over there really intensifies that issue, because right 
now this money does provide that balance. It does provide us a 
resource to develop new ways of getting to academic 
proficiency.
    Shifting it over essentially says career technical ed has 
no value in improving academic achievement. In fact, we are 
finding that it does have quite a bit of value, and you have 
heard from this panel that it is central to the way we improve 
schools.
    So at this point we think we need to do work on both sides 
of the house and moving it over just doesn't make a bit of 
sense to us.
    Dr. Atkinson. And let me follow up on that, if I may, that 
we just spoke a few minutes ago on holding power and what is it 
that helps to keep students in school, what is it that helps to 
reduce the dropout rate. And while at first blush, putting more 
money into high schools to do remediation in math and science 
makes a certain amount of sense, because what schools are 
telling us is we don't have enough funding to do double doses 
of math and those kinds of things. Well, does it? At first 
blush it would be interesting to trace and see just what it 
will do to our dropout rate when what we are doing is putting 
all of our money into math and all of our money in science and 
English language arts and no money into a balanced program in a 
school day and no money into programs that provide a context 
for those academic areas. I sound like a broken record, but it 
is a context that for a lot of our students makes math come 
alive.
    I don't know how many people have looked to me and said, do 
you remember your algebra course, and their eyes just get this 
big. Because it was disconnected. It had no meaning to them. 
You just simply went through the math. Not being able to 
connect that math to a context, we lose a great deal when we do 
that.
    Dr. Kister. I would like to speak to the economically 
disadvantaged that you spoke to. A high risk student, according 
to a national research study fairly recently, a high risk 
student with no career tech courses was about four times as 
likely to drop out as a high risk student with three career 
tech courses. So my first answer to you is they would drop out.
    A couple other issues would be that if you eliminate career 
technical education you would eliminate dual credit 
articulation agreements, therefore making going to college much 
more difficult. Also, it provides a lot of career development 
and career expectation opportunities for students. We know that 
students with a career focus and a career maturity are much 
more likely to succeed.
    Ms. Simons. This program provides opportunity for all 
levels of socioeconomic status. It does not discriminate 
between your family's income or if your family doesn't have an 
income. Without this it would discourage the less fortunate 
from school and ultimately discourage their own explorations 
because they feel intimidated by the monetary values or 
monetary figures of post secondary education.
    Mr. Moore. If I may, I referenced already the academic 
performance on a standardized test of economically 
disadvantaged students at our particular school with that CTE 
focus. Some other data that is so relevant, one of the nicest 
things we can do is ask our students, and their parents, what 
they think, what they think about their school and their 
experience in a CTE-based program. We did that last year with a 
national assessment, and we found that if you compared the 
students who attended our program versus their peers who did 
not the satisfaction level with their high school experience on 
our side was 25 percent greater.
    Now, I know you are all running for office. If you won a 
campaign by 25 percent, you would think you had done very well. 
The parents' satisfaction is even more impressive. Ninety-four 
percent of the parents of our students said this school gets an 
A or a B in my book.
    We are very pleased to get that kind of feedback. To me it 
speaks to the relevance of the content of what they are 
learning. It is more focused on what they want for a career 
path development.
    Chairman Castle. Thank you, Mr. Scott.
    I think we have reached the end of our questioning here. So 
I will just close for a moment, and if Ms. Woolsey wishes to 
she is certainly welcome to as well.
    I certainly thank each and every one of you for being here. 
I realize it is a little bit of a hardship to get all the 
testimony prepared and be here. Obviously we appreciate you 
being here. Most of us never thought of doing something like 
this. We are at least twice as old as you are, maybe three 
times as old. You did a wonderful job, as did all the others, 
as a matter of fact.
    We are trying to progress with this legislation. So if you 
do have comments about it--I send that out even to the general 
audience--we are interested in hearing the comments. We want to 
make it as good as we can. It will still be perfected through 
the waters of the House and Senate, but we will try to do the 
best we can. As early as you can. So that is something we are 
trying to do, but your testimony is certainly very helpful to 
us and we will certainly take it into account as we consider 
this in vocational education in general.
    Ms. Woolsey.
    Ms. Woolsey. I echo everything my Chairman said, and I will 
just save us time by saying that, but thank you very, very 
much.
    Chairman Castle. With that we stand adjourned.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Attachments Provided by Russ Moore, Chief Executive Officer, Central 
        Educational Center, Newnan, GA, Submitted for the Record

                               Appendix A
    CEC article--Part 1
    June, 2001
    by Russ Moore

    This article is part 1 of a 2-part series about Coweta County's new 
Central Educational Center.
    To quote Governor Roy Barnes, ``the world has changed.''
    In 1968, 20% of the available jobs required a four year college 
degree, 15% of jobs required a high school diploma plus some kind of 
technical training, and Central High School in Newnan was Coweta's 
``black'' high school, just a stone's throw from integration.
    Today, while still only 20% of jobs still require a four year 
college degree, 70% of jobs now require a high school diploma plus 
technical training. That's one major reason that the former Central 
High School is now the Central Educational Center-a one-of-a-kind model 
for seamless education that's turning heads around the country.
    The change has been a long time in coming. While technology since 
the `60's has morphed from black & white TV to color, broadcast to 
cable, VHS to DVD, and dialup to broadband, public education is only 
just beginning to change in ways just as fundamental and dramatic. The 
good news is that Coweta County is leading the way.
    ``To my knowledge, no other community in Georgia has figured out 
how to build a partnership with the business leadership of the 
community and the education system like we have here,'' says state 
representative Lynn Smith. ``To make Central happen, government and 
educational bureaucracies had to erase their traditional boundaries and 
not worry about funding-which is hard for government to do-all for the 
greater good of doing something new and making it work.''
    In 1997, a group of local leaders in business, education and 
government convened to examine the issues of education and workforce 
development for Newnan and Coweta County. This was not just another 
committee. The group was chaired by Joe Harless, an internationally-
respected expert in human performance technology and a Newnan resident. 
Harless has twice won the Outstanding Instructional Communication award 
from the International Society for Performance Improvement (ISPI), most 
recently for his book The Eden Conspiracy: Educating for Accomplished 
Citizenship. The group worked for three years, studying educational 
programs across the country, and their eventual proposal found favor 
with U.S. Congressman Mac Collins and Governor Roy Barnes. A central 
tenet of the committee's blueprint is that educational curriculum and 
performance must be accomplishment-based. Barnes provided $7 million in 
state funds to bring the vision to reality, and the Central Educational 
Center opened last summer.
    Central is not a school in the traditional sense. It will never 
have a football team, a gym, a Beta club, school colors, or a mascot. 
Its top administrator is a not a principal, but a CEO. Many of its 
instructors come from industry, not education school. Those who attend 
classes there are called ``team members'' instead of students. Central 
has a board, not a PTO. And in addition to the school superintendent, 
the Governor of Georgia spoke at its groundbreaking.
    Perhaps the best answer of what Central is comes from the man at 
the helm, CEO Mark Whitlock. ``Central is a lifelong learning center,'' 
he says. ``Coweta County residents can receive instruction here for 
life. We provide evening technical school and high school classes, we 
provide adult education to receive a GED, and we train workers for 
local business and industry. But we're probably best known for the 
charter school that offers dual credit in high school and technical 
college.''
    Indeed, being a charter school-and therefore free from many of the 
rules and regulations that dictate the vast majority of public 
education-has opened a Pandora's box of progress that may sweep the 
state and the nation. It attracted Whitlock from the private sector, 
after serving 18 years for Bank of America and its predecessor banks, 
including 9 years in international banking. He sees a significant 
parallel between Central and the training his overseas competitors 
received.
    ``I have an MBA, and some of my toughest competitors were European 
managers whose high school diploma, received at age 18, was the 
equivalent of an American associate technical college degree plus two 
years of apprenticeship.'' Central presents a European model of 
education, mixed with Harless' emphasis on performance technology. 
``Governor Barnes has embraced Central as his model for seamless 
education, in which people are trained better and earlier, focusing at 
an earlier age on the jobs of the future.'' Whitlock adds, ``When a 
student leaves Central at age 18, he or she can have a high school 
diploma, a two-year technical college degree, and walk straight into a 
job paying as much as $32,000 a year. Since the average technical 
school student today in America is 27 years old, we're closing a 9-year 
gap. That has a tremendous impact on economic development in 
communities.''
    As the chief executive of the state with the lowest SAT scores in 
the nation, Governor Barnes is emphatic that the Central model should 
be introduced statewide. In his dedication speech last June, he said 
that ``Georgia is in the throes of an education revolution. Students 
are frustrated that they aren't properly prepared to find jobs even 
after 12 years of school. The problem is the world has changed, but our 
schools haven't.''
    To answer the question of how to educate students in the 21st 
century, Central offers four career tracks: Business and Computer 
Information Systems, Technical and Engineering, Health and Medical, and 
Services. The classes were recommended by a professional needs 
assessment and echoed by Central's technical school partner, 
Carrollton-based West Central Technical College. ``This is what makes 
education that involves Central `seamless','' said Whitlock. ``We cut 
out the lack of connectedness that's been a problem in the past. We 
provide the training we know businesses need, and our students are also 
prepared for what WCTC expects from them, because that's what we expect 
too.''
    Barnes is impressed. ``It's a model I'd like to see replicated 
across the state. It's using technical schools to educate high school 
students, and that makes perfect sense. We must educate our children 
for the technical jobs that have come to dominate the new economy.''
    Doing so will make quite a difference. Last month Central held its 
first ``graduation'' ceremony. While students receive their actual 
diplomas from one of the county's three high schools, and they receive 
degrees from WCTC, the Central graduation marked the completion of 
their first full year of study at what has become a landmark 
institution. 107 ``team members'' received technical school 
certificates of credit for specialized coursework that night, and 
enrollment for the fall will likely exceed expectations. If this model 
is truly introduced to the rest of the state, says Whitlock, ``you 
would reach 145,000 high school students, and Georgia's technical 
school enrollment would increase by 150%.''
    A Georgia Tech study shows that companies considering a move to 
Georgia have two things at the top of their list: first, local 
education, followed closely by the quality of the workforce ``With 
Central, we're killing two birds with one stone,'' says Representative 
Smith.
    Perhaps the biggest advantage Central has is as a charter school. 
Freed from some of the rules of ``normal'' public schools, it shows 
decidedly entrepreneurial leanings. Among the several courses to be 
added in the fall is a series on broadcast TV and video production, 
taught by Teacher of the Year nominee Kevin Pullen.
    ``Central has an entrepreneurial spirit. That's one reason I'm 
here.'' Pullen was hired away from industry to teach graphic arts, and 
now he's overseeing the installation of a $100,000+ TV studio and video 
editing facility. As was done with the genesis of Central, he turned to 
industry experts for advice.
    ``We identified local people who have real experience in this area 
and have made their living in it for some time. We asked their advice 
on how to spend our grant money-what equipment to buy, how best to use 
it for instruction and practical learning-and now they're helping us 
develop the curriculum. This program is a perfect example of how 
Central is more than just a school-it's a resource for the community.''
    Students who enroll in the video classes will have a chance to 
produce programming that may be seen on local cable, and the training 
they receive will make them marketable in video production hotbeds like 
Atlanta and Savannah. ``We're not just training them on how to use this 
particular equipment,'' says Pullen. ``Our advisers said if we want our 
students to be able to work anywhere, we should teach them about 
production processes and challenges that transcend equipment, and 
that's what we're doing.''
    That is perhaps the most important contribution of Central 
Educational Center-creating an environment in which the classes that 
are taught are the classes that need to be taught. And Governor Barnes' 
highest praise centered on what impressed him most. ``Central is all 
about the most important thing of all,'' he said. ``It's about 
providing a better future for Georgia's children.''

    CEC article--Part 2
    August, 2001
    by Russ Moore

    This article is part 2 of a 2-part series about Coweta County's new 
Central Educational Center.
    Last year, Central CEO Mark Whitlock was conducting a tour, 
escorting one of a seemingly never-ending stream of visitors from other 
school systems curious to learn what is so special about Coweta's 
newest educational jewel--and why Governor Barnes would spend $7.5 
million on it.
    Toby Hughes was standing nearby, listening. Hughes is 18 years old, 
the son of a minister. Two years ago, as a high school junior, he had 
been considering what to do with a senior year that would only require 
him to earn one credit to graduate. A counselor told him about the new 
Central Educational Center that was opening, and he enrolled, taking 
Graphic Arts, Computer Repair, Pre-Engineering, a Cisco Certified 
Network Associate (CCNA) course, advanced Calculus and English.
    Hughes recalls that Whitlock's visitor thanked him for the tour and 
said, ``I'm glad you're doing something for those types of students''--
expressing the bias many school systems have that places ``college 
prep'' as the top priority and provides technical training as a bone 
thrown to those not smart enough to go to college.
    ``Her attitude really got to me,'' Hughes said. ``I graduated in 
June with high honors, and I spent my whole senior year at Central 
because it offered me the chance to be the best I can be. Now, every 
chance I get, I help with tours so I can tell people why I came to 
Central and took a job with Computrac over a chance to go to Georgia 
Tech. Central is not an alternative school--it's the new mainstream. 
For people going to college, for people going to technical school, and 
for people just going to work--Central works for everybody.''
    This summer, Hughes is sitting for A Plus, Net Plus, and CCNA 
certifications. He is already making more money than most new 
bachelor's graduates, and with his certifications, he can increase his 
already impressive salary by another 35%. Computrac works for Central's 
newest national corporate partner, 3M Corporation. 3M is providing 
fiber optic cable connections to every desktop computer in the 
facility--the equivalent of every student in a driving class having a 
Jaguar-and Hughes is the project manager.
    While Hughes' example is exceptional, he is by no means alone in 
his praise and enthusiasm for Coweta's Central Educational Center. From 
his fellow ``team members'' (Central-ese for ``students''), to local 
businesses, the local Board of Education, the Governor's office, the 
boardrooms of national partners, and even the U.S. Congress, Central is 
a model that people say should be replicated all over the nation.
    But why are so many people in so many places so impressed? What 
does the Central Educational Center do for our community that makes it 
unique in Georgia and beyond?
    To answer that question, one must first appreciate the genesis of 
CEC. Richard Brooks is Superintendent of Coweta County Schools. Before 
he was a school teacher and administrator, he was a regional manager in 
the private sector with Firestone. He also served as president of the 
Newnan-Coweta Chamber of Commerce, and his experience and community 
involvement with business and industry attuned him to the employment 
needs of the community.
    ``By 1998,'' he said, ``I had heard enough from local CEOs about 
the lack of qualified workers coming out of our school system that I 
knew we had to do something. I heard a lot about work ethic--basic 
things like getting to work on time, everyday--and the ability to work 
with teams, plus the need for specific technical skills.''
    Mike Sumner, chairman of the Coweta County Board of Education, 
said, ``Like most school systems, our curriculum is geared towards 
college prep. But we did a study of our graduates, and we found that 
less than 40% of our high school graduates were going to college. Of 
that number, half of them were dropping out of college--so we had a net 
only about 20% of our high school graduates receiving college degrees. 
We also had a significant percentage of high school students dropping 
out to support their families. So we had a tremendous group of 
potential employees who didn't equate earning a diploma with getting a 
job.''
    The consensus was that the community wanted and needed an education 
system more in tune with the challenges faced by the majority of its 
own students and the needs of employers. Brooks first broached the idea 
of creating a program of technical training at one location that would 
serve all three of the county's high schools. That was an efficient and 
inspired idea, one that was improved greatly by a combination of good 
timing and the hard work of many dedicated people.
    Joe Harless had recently retired as head of an international 
network of organizations that used his concepts to improve the 
performance of employees. He had also just finished writing his 14th 
book, The Eden Conspiracy: Educating for Accomplished Citizenship, in 
which he postulated that education reform must be community-driven and 
accomplishment-based. He read in the Newnan paper about the school 
system's deliberations and realized the opportunity for creating a 
real-life model of his vision. He called Brooks and volunteered to be a 
resource. Brooks immediately convened a group of concerned business 
leaders and invited Harless to address them. ``Before I knew it,'' said 
Harless, ``there was a steering committee and I was the chairman.'' The 
steering committee was made up of representatives from Carroll Tech 
(now West Central Technical College), the local business community, and 
the county school system.
    Harless and Carroll Tech President Janet Ayers collaborated to 
develop a Needs Assessment instrument. It was sent out to 500 local 
businesses, and the responses became the basis for two years of 
planning that resulted in today's Central.
    Sumner said, ``Richard and the school board had the wisdom to step 
back and let the committee develop the focus. And those people worked 
like Trojans.'' Harless introduced the idea of developing seamless 
curricula to provide dual credit toward high school and technical 
college degrees, thus dramatically lessening the years of training 
necessary to turn out productive workers. The committee also came up 
with the idea of forming a charter school.
    On the point of dual curricula and credit, everyone thought it was 
a great idea, but no one knew exactly how to make it happen. ``This was 
very difficult because local school systems and VoTech schools each 
have their own independent budgets and accountability standards,'' said 
committee member Don Moore of Bonnell, Inc. ``What we were proposing 
had never been done before in Georgia.'' Harless kept the committee 
focused by hammering, ``This is what industry wants,'' and the 
bureaucratic roadblocks were overcome.
    The county agreed to provide $7 million and the facility and land 
around what was then Central Middle School, but the project still 
needed at least a matching amount of funding and approval from the 
state.
    Brooks, Sumner, and Harless all spoke to U.S. Congressman Mac 
Collins in early 1999, who was impressed enough with the plan to 
arrange a critical meeting with newly inaugurated Governor Roy Barnes 
and Collins, Brooks, Harless, State Representatives Lynn Smith and Lyn 
Westmoreland, and Chamber of Commerce representative Leah Sumner. By 
all accounts, the meeting was a roaring success. ``We pushed all his 
buttons,'' said Harless. ``Education reform, accomplishment-based 
training, seamless education. He started off non-committal, but by the 
end was very interested.''
    What had been scheduled as a 15-minute meeting extended to most of 
an hour, during which the governor called Dr. Ken Breeden, Commissioner 
of the Department of Technical and Adult Education (which oversees all 
Georgia's technical colleges) and encouraged him to do whatever he 
could to help the Coweta planners. Later, Barnes was also supportive 
with funding, recommending that $7.5 million be appropriated. During 
the 2000 legislative session, Rep. Smith, Newnan-Coweta Chamber 
President Greg Wright, and a hired lobbyist worked yeoman hours keeping 
the issue before legislators and in the appropriations bill, and the 
bill passed and was signed by the Governor. Ground was broken on June 
2nd last year, and last month two new wings opened providing 65,000 
square feet of additional classroom and lab space.
    The hook that landed money and influence and makes Central unique 
is community involvement. Said Harless, ``We are changing what is 
taught by looking at the performance desired by the community and 
working backwards.'' Don Moore of Bonnell: ``Business, education and 
government got together to solve a problem, and we've gotten stronger 
by doing it.'' Chairman Sumner: ``Once the community bought into the 
idea and got behind it, it became their program.'' President Ayers: 
``With all these groups involved, we keep waiting for someone to have 
an argument, and it hasn't happened!''
    Perhaps the biggest problem Central faces is meeting demand. With 
all the attention focused on Central, rightly so, far more students are 
applying to enroll than can be accommodated. But all parties agree if 
you have to have a problem, that's a good problem to have.
    And perhaps Toby Hughes and CEO Whitlock will have another visitor 
soon; the education advisor to the king of Spain has read Harless' book 
and wants to know more about Central. ``It's a new world,'' says 
Harless, and perhaps a good idea from the New World, starting in Coweta 
County, might someday have an impact on the whole world.

                               Appendix B

    Central Educational Center
    Newnan, Georgia
    Prepared by International Center for Leadership in Education
Executive Summary
    The Coweta County School System is perhaps one of the fastest 
growing school systems in the nation, recording a growth rate of 
between six and eight percent each year over the past four years. The 
school system's 17,500 students are enrolled in 27 schools across the 
county. Central Educational Center (CEC) is one of the newest schools 
and represents the county's flagship for educational renewal and 
innovation, student graduation success, and teacher satisfaction. The 
total grade 9-12 enrollment at the center is 1,123 students, with 174 
of the students being dual-enrolled in both high school and technical 
college classes held at the center.
    CEC was created in response to needs expressed by local business 
and industry leaders who believed that area high school graduates were 
not adequately prepared for the Atlanta-area high tech labor market. In 
1997, a group of leaders in business, industry, education, and 
government convened to examine educational and work force issues. After 
three years of work, the county received a charter to open the center 
to educate high school students with a goal being that each would 
achieve one or more technical college certificates of credit (TCCs), or 
one or more industry recognized certificates, in addition to the high 
school diploma. These certificates were part of career exploration and 
training in: agriculture and natural resources; business and 
information management; health science technology; technology and 
engineering; arts and communication; architecture and construction; 
hospitality and tourism; information technology; and engineering/
manufacturing.
    Any Coweta County high school student may choose to attend CEC as 
part of the regular high school program. Students register through 
their base high schools to attend CEC as an extension of the high 
school program. Students are accepted into special CEC programs, like 
work-based leaning, after completing an application, participating in 
an interview, and outlining career aspirations. For dual-enrolled CEC 
students (high school students in technical college classes), 
appropriate COMPASS or ASSET test (with SAT or ACT as substitutes) 
scores are required for admission. All CEC students are given 
connecting opportunities to ``earn'' their way into special program 
acceptance. For example, special remediation is provided for those who 
must then re-take the COMPASS or ASSET test. Over the past four years, 
559 students have earned 657 technical college certificates of credit, 
as well as their high school diplomas. Students attend the center for 
one or more block periods, and return to their base high school for 
many academic courses and for extracurricular activities like sports or 
band. In this regard, the center is not a traditional high school. As a 
charter school, the administrators and teachers have more flexibility 
in operating the school, selecting courses, and developing curriculum. 
The instructional staff is divided between Coweta County employees and 
employees of the West Central Technical College (WCTC).
    The center's culture reflects six major characteristics: setting 
high expectations; fostering a work ethic; maintaining business and 
industry relationships; developing a business environment at the 
school; establishing a seamless approach to career-path education; and 
setting a macro objective of giving students the skills and knowledge 
necessary to function successfully in a technological society.
    The leadership is collaborative, student-centered, and supportive 
of faculty and business environments. The building-level leader is 
called a CEO, and he describes his role as ``servant leader.'' Students 
are called ``team members,'' and teachers are known as ``directors,'' 
reflecting the business setting fostered at the school. The 
organizational structure of CEC reflects its charter school 
designation, which continues to encourage trust, teamwork, and 
communication among staff. This provides a great deal of flexibility in 
the structure, management, and instructional practices of the center.
    The curriculum is based on the job competencies related to each of 
the certificate programs. Career exploration work also includes job 
shadowing, internships, and youth apprenticeships. The emphasis in 
courses is on project-based learning and accomplishment-driven 
competencies. Visitors are aware of the clean and well-ordered 
environment within the building. The teachers demonstrate a sense of 
purpose, pride, and dedication when discussing students. Professional 
development is a daily occurrence in that all staff members have a 
common planning period as a result of the block scheduling. The staff 
takes pride in demonstrating the technology available for use in 
instruction. Local business and industry leaders continue to support 
the center with donations of equipment, advice, and grants.
    CEC operates effectively in support of its macro objective to 
prepare its students with entry-level technical skills that will serve 
them well as they attend college or enter the Atlanta-area labor 
market. The center represents a rigorous and relevant training model 
for career preparation.

I. Demographics/Profile/Performance Data
    Central Educational Center is a collaboration of the business 
community, WCTC, and the Coweta County School System. The school system 
enrolls 17,500 students in 27 schools. It is one of the faster growing 
school systems in the nation with a six to eight percent growth rate 
each year. Located southwest of Atlanta in Newnan, Georgia, CEC draws 
students from the three base high schools in Coweta County--Newnan, 
East Coweta, and Northgate. The school's enrollment mirrors that of the 
county with about 28% of the students identifying themselves as 
minority students. Total enrollment is 1,123 high school students 
including 174 students who are dual-enrolled in the technical college's 
classes. In its first three full years of operation, CEC served 2,861 
students during the traditional four-block day schedule, with 895 
students attending for more than one year, and 159 students attending 
all three years. Since CEC opened in 2000, 559 students have earned 657 
technical college certificates of credit.
    The origin of CEC is unique in that it is a response to the needs 
of local business and industry. In 1997, a group of local leaders in 
business, industry, education, and government convened to examine 
issues of education and workforce development for Newnan and Coweta 
County. The group worked for three years, studying educational programs 
across the country, and canvassing Coweta County's business and 
industry leaders. Over 40% of Coweta's business and industry leaders 
responded to a needs assessment survey. Among that response rate 
overall, 80% of the manufacturing and technical jobs in the county were 
represented. Critical employee concerns included life skills, work 
ethic, and basic math and reading skills. In response to the concerns 
of the county leaders and business representatives, CEC was established 
``to ensure a viable workforce for the 21st Century based on targeted 
needs within the community.'' The goal of the center is: ``To create 
synergy among the educational, business, industrial, and governmental 
entities that will favorably impact and enhance economic development 
and the quality of life in the region.''
    CEC is a school of choice for students who wish to add technical 
electives to their high school programs of study, and/or add a 
Technology/Career Seal of Endorsement to their high school diploma. In 
collaboration with WCTC, students may complete postsecondary courses 
and programs while at CEC, and earn dual credit in the high school and 
the technical college.
    CEC is not a school in the traditional sense. It is a start-up 
charter school that gives school planners and administrators 
considerable, but not unlimited, flexibility. Students are still 
enrolled in their base high schools, but spend half, or in some cases, 
all of the school day at CEC. Students are called team members rather 
than students; their teachers are called directors, and the head 
administrator is a CEO, rather than a principal. A board of directors 
has replaced the PTO. Perhaps the best descriptor of the center comes 
from its board chair and former CEO, Mark Whitlock who said, ``Central 
is a lifelong learning center. Coweta County residents can receive 
instruction here for life.''
    The school presents, perhaps, a more-European model of education 
with a heavy emphasis on an educational curriculum that is 
accomplishment-based. Georgia's former Governor Barnes embraced CEC as 
a model for seamless education, in which people are trained better and 
earlier, focusing at an earlier age on the jobs of the future. The 
Governor and state legislature provided $7 million in state funds to 
bring the vision of CEC to reality. More than 20 business partners have 
also provided financial support.

II. Culture
    The four-year period of the school's operation was preceded by 
three years of open-ended problem solving and needs assessment that set 
the culture of the school. The center maintains a unique quality in its 
adherence to a seamless approach to career-path education and 
accomplishment-based instruction. The curriculum is derived from an 
analysis of post-education performance of students, and the instruction 
reflects a seamless match with the desired post-education competencies. 
The instructional staff works to build trust, work ethic, and 
responsibility in the students. To emphasize the use of a business and 
industry model, CEO Russ Moore brings a wide and diverse business 
background to the center, which operates under a charter agreement with 
the Georgia Department of Education.
    The center's culture is reflected in six major characteristics:
    1.  The establishment and maintenance of high expectations by 
students and faculty related to class work and accomplishments.
    2.  The fostering of a work ethic that is measured, graded, and 
reported as part of the grading system.
    3.  The maintenance of a business and industry environment within 
the center, and the availability of on-the-job experiences for 
students.
    4.  The generation of a working partnership among businesses, WCTC, 
Coweta County's Chamber of Commerce, and the Coweta County School 
System.
    5.  A seamless approach to career-path education, which mixes high 
school students with adult learners seeking job skills, and adults 
employed in industry who are improving job skills as part of their 
employment. Many of the high school students have dual enrollment 
seeking both high school and college credit. The instructional program 
is based on the competencies required within the job market, creating a 
highly relevant, seamless approach for students.
    6.  As a charter school, the center uses certain exemptions to 
achieve the macro objective of ``giving students the skills, knowledge, 
and attitudes necessary to become accomplished family members, society 
members, workers, and citizens.'' Many of the teachers come from a 
business background, and have extensive on-the-job experience to model 
for students.
    A group of business leaders initially approached the school 
superintendent with a concern that students were not prepared either 
academically or attitudinally for the available jobs in the county. Out 
of that request grew a working partnership that opened a discussion 
about what can and should be done to improve the economic and work 
conditions within the county and the state. The work group created a 
needs assessment instrument to identify on-the-job needs, and a concept 
of education that would support seamless career-path instruction. An 
application for charter school status was supported by funding from the 
State of Georgia, Coweta County, WCTC, and the Coweta County School 
System. Much of the conceptual base for CEC is summarized in the 
publication The Eden Conspiracy: Educating for Accomplished 
Citizenship, written by Dr. Joe Harless, chairperson of the work group.
    The work group prepared a mission statement, purpose statement, and 
a goal for CEC based upon responses to the needs assessment survey from 
over 40% of Coweta County's business and industry leaders. The school's 
mission is ``To ensure a viable workforce for the 21st Century based on 
targeted needs within our community.'' Its purpose is ``To develop, 
implement, and offer innovative learning opportunities for residents of 
Coweta and surrounding counties to achieve economic and personal 
goals.'' Its goal is ``To create synergy among the educational, 
business, industrial and governmental entities that will favorably 
impact and enhance economic development and the quality of life in this 
region.''
    The staff endeavors to treat students respectfully as adults, but 
it also emphasizes the responsibilities that each student must assume 
through a policy descriptive of a desirable work ethic. Visitors to the 
building quickly sense the importance placed on work responsibilities 
such as respect, attendance, and teamwork. Each student is evaluated on 
22 characteristics for work ethic using a rubric adapted by the staff 
from work done over a decade by Georgia's technical colleges. The 
melding of the partnerships also represents a unique contribution to 
the culture of CEC. Both school system staff and WCTC staff were 
selected based on their ability to contribute to the mission and goal 
of the center. School and college staff members are working partners 
with the business and industry representatives whose needs and support 
guide the development of instruction. The culture within the building 
is reflected in the statement that, ``Every person is a leader in this 
building.''

III. Leadership
    The vision, mission, and goals of CEC are realized through a 
collaborative leadership effort. All stakeholders contribute to and 
support the center's mission, with a goal to have ``95% of graduates in 
related career or related education within 90 days of graduation.'' The 
Coweta County School Superintendent and the Coweta County Board of 
Education oversee and support the efforts of the center. The school 
system's Director of the High School Program and Business-Community 
Director work collaboratively with CEC to ensure appropriate bridging 
of programs and activities from the three high schools sending students 
to the center, and to ensure that the programs and operations of CEC 
meet the school's mission.
    Business and industry partners, the core founders of the center, 
continue to provide leadership and direction on employment trends, 
industry needs, up-to-date curricular components, and state-of-the-art 
equipment and technology needed in the classroom to ensure workforce 
readiness. The WCTC Board and the Director of College Operations work 
closely with the Technical College Directors at the center to provide 
leadership in the curricular components of the dual-enrollment program. 
This collaborative ensures that the technical college's certificate 
programs provided for team members at the center are comparable to 
those provided for technical college students throughout Georgia. 
(Georgia's technical colleges, like technical colleges and community 
colleges nationwide, generally host enrollees whose average age is 27. 
CEC is part of a strategic effort on the part of Georgia's technical 
colleges to reach a younger population to ensure the State's workforce 
needs are met.) To sustain parental involvement and support, six 
members of the Board of Directors of CEC are parents. This ensures 
parental input when setting school policy. Clearly, leadership extends 
beyond CEO Moore to include all groups who have stakeholder status in 
the center. These groups sustain CEC's mission, and help it move 
forward.
    The building-level leadership consists of a CEO and the directors 
of the high school program, technical and career education (now 
Business-Community Director), and college operations. The titles of CEO 
and directors are reflective of the business-like culture that 
characterizes the school. The CEO reports to the board of directors as 
outlined in the school's charter. The flexibility of a charter school 
enables CEC to have a businessperson with real-world experience 
administer the school. The CEO with a business background brings a new 
perspective, and helps to link public education and the private sector. 
The primary responsibilities of the CEO are to reinforce the vision and 
mission of the school, stay close to the people in the school, keep in 
touch with the outside community, and pursue ``the continuous 
improvement of the partnership.'' The original concept of the role of 
the CEO was a ``bridge'' to connect the various partners in the 
project, and that concept remains the key to the entire role.
    The founding CEO of the school describes the leadership of CEC as 
``servant leader.'' It is a situation in which there is power without 
power. The CEO has little direct control over those he manages. CEC has 
little budget of its own, but largely depends on its partners, 
particularly the Coweta County Schools and WCTC, for the funds it has. 
Faculty are employed by one of those two partners. There is no CEC 
diploma, nor is there a CEC school in the eyes of the state. CEC is 
seen at the state level as an extension of the three Coweta County 
public high schools and as a satellite campus location for WCTC. The 
CEO connects partners, promotes efficiencies, and encourages partners 
to pursue continuous change and improvement. He promotes a shared 
environment for education and business, and he is responsible for 
oversight and integration of high school, technical and career 
education, and college operations. He acts as a facilitator, building 
and strengthening relationships among all the partners including 
business, the school district, the college, parents, state and local 
elected officials, and the community at large.
    The center's leadership model values trusting, teamwork, and 
communication among team members and directors. The model describes 
leadership as:
    <bullet> Communicating an exciting vision of the future to team 
members and directors.
    <bullet>  Initiating action to bring about continuous improvement.
    <bullet>  Acting as mentor, developer, and facilitator.
    <bullet>  Using strong influencing and negotiating skills.
    <bullet>  Making the complex simple.
    <bullet>  Making fact-based arguments.
    <bullet>  Planning strategically for change in the program.
    <bullet>  Ensuring that team members understand career goals.
    <bullet> Attracting and retaining team members whose career goals 
match the program.
    Management's philosophy was identified and developed by the first 
CEO Mark Whitlock, who outlined four challenging yet simple directives:
    1.  Hire GREAT people.
    2.  Provide clear goals.
    3.  Expect and support continuous improvement.
    4.  Build a culture of continuous change.
    Within this philosophy, personal goals for directors are identified 
as: gain nationwide respect for your CEC work, and have more fun than 
you have ever had in your career. The leadership focuses on mission and 
values. With successful ``bridging'' of all the partners, setting clear 
goals and high expectations, and trusting, respecting and empowering 
directors as true professionals, effective leadership is a large part 
of the explanation of CEC's success.

IV. Organizational Structure
    Central to the organizational structure of CEC is its charter 
school status, which allows a great degree of flexibility in structure, 
management, and instructional practice. This flexibility is 
considerable, yet the school is held accountable to certain state and 
school district parameters, and is obligated to report to the school 
superintendent. As a charter school, CEC functions as a pilot school, 
trying out some things that may eventually become part of the 
traditional school organization. A board of directors that includes 
parents, educators, and industry representatives governs the school. 
The board meets bi-monthly to conduct strategic planning and reflect on 
progress. It considers and advises on issues such as student 
attendance, busing schedules, tracking outcomes, resource acquisition 
and distribution, communications, and marketing. The CEO reports to the 
board as defined in the school's charter.
    CEC represents an application in the educational arena of the 
Accomplishment Based Curriculum Development System (ABCD) of Dr. Joe 
Harless, a performance technology model used in private industry. 
Detailed in his book, The Eden Conspiracy, the ABCD system differs 
primarily from the traditional subject matter-based curriculum in that 
its educational goals are clearly defined and measured in the 
accomplishments of students. The ABCD system begins with a needs 
assessment that identifies both present and future needs. These needs 
become tangible outcomes from which the educational model is designed. 
Students are empowered and taught to perform tasks that apply the 
knowledge and skills identified in the original needs assessment, 
ensuring that the needs of business and students are met.
    The process for establishing a CEC-like educational institution is 
defined by Dr. Joe Harless in the following four phases.
    Phase 1: Needs Assessment and Planning
    <bullet>  Form a task force composed of representatives of 
principal stakeholder segments.
    <bullet>  Survey area employers to determine current and expected 
employment needs.
    <bullet>  Determine employer expectations regarding technical 
skills, knowledge, and work ethic.
    Phase 2: Design
    <bullet>  Determine major curriculum paths.
    <bullet>  Determine courses, articulations, and dual-enrollment 
opportunities.
    <bullet>  Determine facilities, equipment, and staff required.
    <bullet>  Develop research protocol to assess results.
    Phase 3: Implementation
    <bullet>  Select CEO, faculty, and staff.
    <bullet>  Conduct faculty training in performance-based 
instruction.
    <bullet>  Deliver courses.
    Phase 4: Evaluation
    <bullet>  Continuously monitor instructional effectiveness and 
relevancy of content.
    <bullet>  Perform follow-up of students to determine placement, and 
transfer of skills and knowledge.
    The organizational structure of CEC is also defined by its 
partnership that brings high schools, businesses, and a technical 
college together to provide students with an opportunity to engage in a 
seamless program of study that integrates secondary and postsecondary 
education. Following a needs assessment and the development work of a 
26-member steering committee representative of all the partners, WCTC 
collaborated with the Coweta County School System, local government, 
other educational agencies, and the business community to create a new 
program to meet the needs identified by potential students, residents, 
and business owners in the county. One tangible result of the 
committee's work was the writing of a charter that was approved by the 
local and state boards of education in 1999.
    The center has become the most innovative technical education 
program in Georgia. One student described CEC as a ``full-service 
educational hub.'' Five groups of students attend CEC: college-level 
students, high school students, dual-credit students, adult learners in 
GED and literacy programs, and local employees undergoing custom 
training. The school operates on a schedule with four blocks per day 
with 10% of the students attending CEC all day, and most students 
attending for one-half day. Students may attend classes for the first 
block only; the first and second blocks; the third and fourth blocks; 
or for all four blocks. In addition, some high school, college, adult, 
and training programs operate in the evenings until 10pm.
    CEC serves students in both a high school and a technical college 
housed within the same physical structure. In addition, adult students 
prepare for the GED in evening courses, and high school students in 
need of remediation and course make-up attend evening high school 
sessions. (Counting these additional students yields typical total 
enrollment for the entire program of CEC at approximately 1500 
students.) Because the college and secondary school's career and 
technical education programs are housed in the same facility, students 
can earn technical college certificates while still in high school and 
have an opportunity to get a head start on the next phase of life, 
regardless of whether it involves a four-year college or university, 
further technical training, technical or community college, or the 
workplace. Upwards of 80% of dual-enrolled high school students pursue 
additional postsecondary education and training, which is double the 
local average.
    As a result of the strong business and industry partnerships, CEC 
is a showcase for state-of-the-art technology and technological 
equipment used in the workplace. These resources enable CEC to offer 
local employers the opportunity for off-site training. While CEC 
provides the instructional capacity to deliver (connected as it is to 
Georgia's award-winning QuickStart and other technical college 
programs) the training, business and industry provide the necessary 
resources to create a training environment that truly represents the 
world of work. From this unique organizational structure and with the 
flexibility of its charter status, CEC gives high school and adult 
students the opportunity to prepare for the world after school, and to 
stay current in work-based competencies requiring new technology, 
processes, and procedures. In this model, adults and high school 
students learn side-by-side in the same learning environment.

V. Curriculum/Assessment
    Under the Harless ABCD system, educational goals are defined by the 
expectations learners have upon graduation as they fulfill their 
primary roles as society members, family members, workers, and 
individuals. The instructional design is based on five tenets, which 
characterize instruction at CEC:
    1.  All students can learn (and most to a high level).
    2.  Teachers must respond to student differences.
    3.  Good instruction is key to good learning.
    4.  The design and delivery of instruction is critical.
    5.  ``What'' is being taught largely determines ``how'' it will be 
taught.
    Relevance of the curriculum to the identified expectations of 
students is also a critical component in how courses are designed and 
delivered. CEC introduced project-based instruction and work ethic as 
fundamental teaching tenets to be emphasized across all instructional 
programs. The CEC curriculum has been identified and developed by two 
primary sources: the technical college system and the original needs 
assessment conducted by the steering committee that initiated the 
school. Academic courses required by the Coweta County School System 
are also taught as part of the core requirements. (Interestingly, the 
needs assessment yielded the notion that employers now require a 
combination of technical and academic skills thus also supporting the 
coupling of the technical with the academic.) Course offerings and 
certificate programs at CEC fall under the following career and 
technical education clusters:
    <bullet>  Agriculture and Natural Resources
    <bullet>  Business and Information Management
    <bullet>  Health Science Technology
    <bullet>  Technology and Engineering
    <bullet>  Arts and Communication
    <bullet>  Architecture and Construction
    <bullet>  Hospitality and Tourism
    <bullet>  Information Technology
    <bullet>  Engineering/Manufacturing
    According to the Director of the High School Program, ``Every 
course in the curriculum responds to needs in the local labor market.'' 
Students can choose from programs that range from high tech (e.g., 
computer repair, computer networking, and CAD), to construction and 
production (e.g., certified manufacturing specialist, machine tool 
technology, and metal joining), to health care (e.g., dental assisting 
and patient care assisting), travel and tourism, and broadcasting.
    Curriculum development involves not only teachers and central 
office curriculum developers, but also representatives from business 
who serve as subject matter experts (SMEs) who work with educators to 
identify skills, knowledge, attitudes, and behaviors needed in the 
workplace. The curriculum is designed around these parameters. Business 
representatives inform, design, and help deliver the curriculum. 
Through communication networks with the community and through the SMEs, 
business and industry have an opportunity to influence curriculum 
development. For example, if a program no longer aligns with labor 
market demands and does not have minimal placement, retention, or 
graduation rates, that program can be eliminated.
    The curriculum is primarily self-directed and self-paced, which 
reinforces the need for self-discipline, and which enables a student to 
finish ahead of schedule. Another important aspect of the curriculum is 
its project-based relevancy. The relevancy of the curriculum to the 
desired accomplishments desired from the students is the core to the 
Harless accomplishment-based curriculum development system. The 
project-based component was added by the initial steering committee. 
Each program area at CEC provides an opportunity for students to 
participate in work-based learning. Each job site has to be approved, 
and students have defined competencies to learn. Students may 
participate in work-based learning in the following ways:
    <bullet>  Job shadowing--students report to a job site to explore 
opportunities in that field of study.
    <bullet>  Internship--students work either paid or unpaid at a job 
site that is in their field of study.
    <bullet>  Cooperative Education--students are enrolled in a 
cooperative class and work one or two class periods.
    <bullet>  Youth Apprenticeship--students may work as many as three 
blocks in their field of study. Students commit to 2,000 hours of on-
the-job training, are paid using a progressive pay scale, and must 
attend postsecondary education.
    In addition to academic grades, students receive a work ethic grade 
comprised of scores related to ten work ethic areas that are rotated 
for instructional emphasis on a weekly basis. All teachers are expected 
to integrate the ethic areas in instruction. Students enrolled in the 
certification programs in conjunction with the technical college are 
assessed through certification tests developed and administered by the 
related technical business and industry program. State standards-based 
assessments are administered at the base high schools. However, 
instructors at CEC are aware of state standards, and introduce, 
reinforce, or bring students to competency in these standards through 
their technical programs.
    The emphasis on project-based learning and accomplishment-driven 
competency puts assessment in a high performance mode. Students are 
expected to demonstrate what they know, and as team members in a 
business-like environment, they are expected to produce quality and 
quantity expected in the real world business situation. Product and 
performance are key components of the assessment system. As former CEO 
Mark Whitlock states: ``The true goal of education is the application 
of knowledge.'' Students are expected to not only attain high levels of 
cognitive skill development; but also be able to apply those skills to 
real-world business and industry situations. The project and 
performance-based relevancy of the curriculum is one of the primary 
components of CEC's effectiveness.

VI. Extracurricular and Co-curricular Activities
    Students enrolled at the center participate in one or more of the 
four time blocks each day. Approximately 10% of the students attend CEC 
all day. Some students also enroll in the evening session to 
participate in programs that they cannot fit into their day schedule. 
Because of the arrangements between the center and the three base high 
schools in the district, the center does not attempt to provide 
duplicate extracurricular opportunities for their students. Students 
are encouraged to participate fully in the academic and social life of 
their base high schools. The present CEO commented that, ``This is not 
a school in the common sense. We will never have a football team, a gym 
or a mascot.''
    One of the extracurricular opportunities at the center is the Youth 
Leadership Council. Students may nominate themselves or others to meet 
with the faculty representative for the purpose of discussing school 
operations, improvements, and activities. In addition, many programs at 
the center as a part of Career and Technical Education Youth Leadership 
Activities have regional and statewide competitions built into the 
syllabus. Several programs list students who were successful in 
competitions such as tool casing, landscaping, job interviewing, and 
construction. Other programs emphasize service projects that engage 
students in community projects. The construction program uses students' 
skills in the ``Habitat for Humanity Program,'' while the Health 
Science Programs place students in volunteer positions in hospitals, 
nursing homes, and dental offices.
    The programs and the personal attention shown by the faculty often 
result in students developing special interests related to their course 
of study. One student described his newfound interest in writing based 
on his work in Arts and Communication. A second student outlined her 
interest in floral display that she pursued as a part-time job and a 
possible entrepreneurial opportunity in the future because of the extra 
work and attention from a teacher at the center. Students also 
expressed a desire to have more opportunities for social activities, 
and for developing individual skills and interests. During the second 
instructional block, announcements are made at the center about base 
high school activities and information. The students feel that their 
additional travel time between schools and their study requirements 
prohibit their participation in many extracurricular activities at 
their base high school.
    In general, the traditional importance of extracurricular 
activities in high school takes on a different role at the center. The 
college atmosphere for both adults and high school students provides 
opportunities to develop personal skills and interests through job 
competencies and the variety of career- path explorations. However, 
students at the center are often more interested in accumulating 
credits toward multiple certificates than participating in additional 
clubs. For others, the base high schools offer a wide range of 
extracurricular opportunities for the students attending the two 
educational facilities.

VII. Use of Data
    The center's use of data is influenced by its operation as a 
charter school focusing on vocational and technical training. Student 
achievement data are collected by the base high schools; competency 
data are collected by the technical college for adults and dual-
enrolled students; and data on attendance, grades, work ethic, earned 
certificates, job placements, and postsecondary enrollments are 
collected by the center. Assessments from employers about the job 
performances of graduates provide a major source of data for the 
assessing achievement of the center's mission
    The technical college reports a 93% increase in the number of dual-
enrolled team members (from 90 in 2001 to today's 174) and a 128% 
increase in the number of certificates earned each year, from 2000-01 
(96), 2001-02 (163), 2002-03 (186) and 2003-04 (219). In CEC's first 
year, seven programs had students completing the requirements for 
certificates, compared to 16 programs listing successful completions in 
2003-04. Equally impressive are the data that 41 students in 2003-04 
completed two certification programs, compared to six in the first year 
and twelve in the second year of the center's existence. The staff 
continues to encourage students to explore more than one career when 
they apply to the center without a clear career path in mind.
    The rigor and relevance of the center's instructional program is 
measured by test scores and other business-related performance data. 
Student achievement scores of those enrolled at the center were 
isolated from scores of their base high schools. Despite the fact that 
a significant percentage of the school system's traditional ``college 
bound'' students do not attend CEC (though that percentage is 
increasing), students at the center match or slightly exceed the 
averages for Coweta County School System students in English language 
arts, math, science, and social studies, and are only slightly lower 
than the county's average scores in writing for the past three years on 
Georgia's High School Graduation Test. Scores for economically 
disadvantaged students (who make up 11% of the center's enrollment) are 
vastly superior on all five state tests, with an average improvement of 
12% over the county average. While the center provides no instruction 
in core sciences (biology, chemistry, or physics), perhaps as a result 
of the applied versions of those sciences covered in courses like 
health occupations, welding and pre-engineering, the center's students 
score highest above the county average in science.
    Though test data are measured and tracked, the center also 
evaluates rigor and relevance using other key indicators identified in 
its charter and strategic plan; specifically, dropout rates, graduation 
rates, and placement rates. Since the center opened in 2000, Coweta 
County's dropout rate has fallen 3.6 percentage points, improving 42% 
from 8.6 to 5.0. A study by the University of Georgia revealed that the 
graduation rate of the center's dual enrollment programs was 98%-which 
is more than 20% better than the county's general high school 
graduation rate. Further, 100% of those graduates were placed in jobs 
or additional post-secondary education within two months of graduation.
    These data are shared with the faculty and discussed at their 
weekly team meetings. The guidance counselor tracks the academic 
performance and the grades in work ethic to ensure that those students 
are making adequate progress. When students experience difficulty, 
remediation is required. In addition, attendance remains a pivotal 
indicator of work ethic and acceptance of responsibility. Students who 
have six unexcused absences or more during a semester have points taken 
off their course grades.
    Students are accepted into the center after an enrollment process, 
structured interview about their career aspirations, and a review of 
attendance and school attitudes. When accepted, student data are used 
to informally construct a plan of study at the center and at the base 
high schools. As students begin each course, the instructor provides a 
syllabus that details the competencies to be learned, topics that will 
be covered, and testing dates leading to completion of one of the 
fourteen certificates awarded through the WCTC under a dual-enrollment 
arrangement.
    The use of needs assessment surveys with businesses, students, and 
parents represents one of the most discussed and influential data 
sources employed by the center's staff. The original needs assessment 
survey for business and industry was completed in 1999 to establish 
job-training areas for the center. A revised survey will be re-
administered this summer. The new survey seeks to determine growth in 
the skill level of graduates, to re-assess needs of the local labor 
market, and to identify new training areas in business, which may be 
related to the aviation industry in the general Atlanta region. In 
general, the staff's attitude of continuous improvement means that ways 
can be found to increase the use of data to ensure relevance of the 
curriculum as viewed by business, parents, and students; and to ensure 
the rigor of the curriculum in light of the job competencies in a 
highly technological work environment.

VIII. Parent/Community Involvement
    CEC had its genesis in community involvement that continues today. 
Business leaders concerned about the region's economy enlisted the 
support and involvement of education agencies to investigate root 
causes of a mismatch between the knowledge and skills of school 
graduates, and the needs of the labor market in Coweta County. After 
several years of brainstorming, investigating, and designing 
curriculum, the concept of the center emerged. The original committee 
pursued charter school status to allow implementation of several unique 
approaches to curriculum, dual enrollment and governance.
    CEC is operated under the direction of a CEO charged with the 
responsibility of melding partnerships among parents, business, 
community, and educational agencies (Coweta County School System and 
WCTC). The board of directors required by the school's charter has 
representation from business leaders, parents, and school personnel. 
Efforts are made to involve community and parents to determine the 
success of the center's activities, and to identify future needs.
    Business representatives acknowledge the importance of the center 
to the economic vitality of the region through donations of machinery 
and technology, personnel to assist the school, and use of the center 
to train business personnel along side of the center's students. 
Industry leaders encourage acceptance of apprentices, job shadowing, 
and internship students at their work sites. Parents receive 
information on academic progress of the students as well as telephone 
calls concerning student achievement or discipline issues. Open house 
opportunities exist for parents, as well as an open invitation to visit 
the school. Expanded communication opportunities in the form of 
newsletters and parent organizations are anticipated for next year. The 
WCTC operates with a policy that each of its programs must have an 
advisory committee to meet regularly to evaluate program objectives and 
competencies as a means of keeping the program relevant to business and 
technology needs. CEC's secondary programs have embraced this model and 
have advisory committees made up of representatives from business and 
industry that meet quarterly.
    Anthony Chow from Florida State University conducted a three-part 
research study on CEC. Part two of the study described a parent and 
graduate survey. Since the study was done in the second year of the 
center's existence, a small number of parents and graduates 
participated in the survey. Those that did respond were positive in 
evaluating the center's ability to address its mission and goals. The 
final portion of the study, now under development, reports a 
significant increase in respondents, and a continuing positive 
impression of the center. In summary, parent and community involvement 
is an intrinsic component of the culture and mission of the center. 
This involvement has grown over time, and serves as a model for what is 
possible in career training when partnerships are developed and 
nurtured.

IX. Safe/Orderly School
    Visitors to the center are immediately aware of the clean and 
orderly environment of the building. The center occupies a main 
building that was a middle school prior to being occupied by the CEC. 
It was expanded during its first year of charter operation to 
accommodate industrial, pre-engineering, construction, health sciences, 
dental assisting, and horticulture labs and work centers. The faculty 
was consulted and involved in designing the functional expansion of the 
building. The wide corridors encourage team meetings and a college 
atmosphere at the school. Few students are seen in the halls during the 
instructional blocks because they tend to work in teams on projects 
moving to a level of competency in their courses. Since the day is 
organized around four instructional blocks, time is provided to 
socialize, travel to base schools, and consult with teachers during an 
extended time period between blocks.
    The school strives to provide a safe and secure environment with 
doors locked except for the front door, which is visible from the main 
office. A majority of students drive their cars to the school rather 
than take buses. Most students attend the center for one or two blocks 
and attend their base high school for the remainder of their 
instructional day. Directors and administrators are in the halls, are 
outside the building, and are in the parking lots during the break 
between blocks. The well-maintained atmosphere within the building is 
reflected in the individual classrooms where each instructor insists 
that the room be maintained to business or industrial standards as a 
matter of course. The work areas are maintained to the same standard as 
those where students intern as part of their work-based program. The 
influence of the work ethic curriculum with 22 characteristics measured 
in ten traits can be observed in the maintenance of the learning space.
    The center is a safe and well-organized building as a result of 
teachers' attitudes, the business curriculum, and student behavior. 
Several students commented that the center serves their needs for a 
more relevant and rigorous curriculum that will allow them to function 
well in the technology-rich business environment. As one student said, 
``It is an honor to be here since we are treated like adults, and we 
are given a great education to prepare us for the job market.''

X. Professional Development
    The center recognizes the need to build staff's capacity and 
capabilities continuously. Professional development is a daily 
occurrence within the benefit of a common core planning period for all 
staff. School breaks between the morning and afternoon blocks give 
staff opportunities to collaborate on instructional practices. Staff 
are encouraged to share their most successful instructional strategies 
in what are called ``best practices sessions'' that are held once a 
week. The staff from the technical college is required to complete 60 
hours of professional development each year.
    During the first year of the center's operation, all staff received 
40 hours of training by Dr. Harless in his ABCD system of educational 
design. These faculty development seminars helped to ensure that the 
philosophy and goals of the center became a part of the instructional 
approach. Many staff have accomplishment-based course outlines, and 
most of the work students engage in is project-based or performance-
based. Directors share what they do with one another, and when possible 
and appropriate, reinforce and connect learning from one discipline to 
another. Staff also attends professional conferences and workshops. 
Many staff members bring business and industry experience to the 
teaching profession, helping enrich the instruction of all staff.
    The business and industry partnership also makes it possible for 
staff to use other resources in the community for assistance with 
instructional content and delivery. Advisory boards play an active role 
in identifying curricular content, and assist with training to help 
develop the intellectual capacity needed to use the technology inherent 
in program.

XI. Technology
    CEC is a showcase of technology. Team members have an opportunity 
to gain hands-on experience using state-of-the-art technical equipment, 
both in school and as a part of their work experience programs. 
Technology is integrated across almost the entire curriculum, with a 
focus on experiential, hands-on, work-based learning. Technology 
becomes the means to accomplish products and performances, and it is 
integrated within the instruction.
    During the initial planning stages of the CEC design, customized 
job training with a fluid or seamless credentialing process was a goal 
promised to business and industry. To make this possible and enhance 
the economic development of the community, business partners donated 
equipment for work simulations and laboratories. Business, industry, 
government, and community stakeholders came forward with financial and 
equipment investments in CEC to ensure students were prepared for work 
in the global marketplace. Georgia's former Governor Barnes and 
Georgia's Legislature provided $7 million as an incentive grant, and 
the Coweta County Board of Education provided $7 million in an existing 
middle-school facility and surrounding acreage for the initiation of 
the center. The Coweta County Board of Education, Georgia's Department 
of Technical and Adult Education, and businesses contributed some $3 
million in funds and equipment to develop the technical labs. Coweta 
County provided some $2 million from an Education Local Option Sales 
Tax to support the renovation of the original building. Various levels 
of leaders, local and statewide, believed in the advantages of the 
center's workforce development model with its seamless approach to 
secondary and postsecondary education.
    CEC persuaded Yamaha to remain in the community since CEC delivers 
technical training for its future workers in a technology lab installed 
at the school with a major donation from the company. Business partners 
such as 3M Corporation provided thousands of dollars of fiber-optic 
material and labor for the schools' 800 computers, and Lab-Volt of New 
Jersey donated its newly developed state-of-the-art information 
technology program.
    Business representatives as subject matter experts (SMEs) often 
advise staff on equipment. The SMEs help to ensure that classrooms are 
adequately equipped by identifying and acquiring state-of-the-art 
equipment and technology. In some cases, staff has learned from their 
business partners that the important thing students need to know is the 
``how.'' The ``right'' tools may not have to be the most expensive 
ones. One of the school's challenges is to keep the technology current. 
Active advisory committees work closely with staff to make this happen.

XII. Lessons Learned
    The following factors have been most significant in the school's 
success.
    <bullet>  The leadership within this school enables the student to 
learn through a first rate curriculum, with a first rate faculty, and 
with the support of the business community. Leaders within and outside 
the school have focused the energies of the center on the need to 
educate students to meet the demands of a technological society.
    <bullet>  The partnerships among business, college, community, 
parents, and school systems began the venture of creating the center, 
and now maintain the focus on the center's mission and goals.
    <bullet>  The use of work ethic as a curriculum component allows 
the school to address a stated need in the business community.
    <bullet>  The flexibility in hiring, curriculum offerings, student 
choice, and building operation exists at the center because of its 
status as a charter school.
    <bullet>  The ability to provide instruction in the same classroom 
for high school students, adults seeking employment, and adults seeking 
to upgrade skills for their present job is unique. The existence of the 
technical college staff instructing adults and dual-enrolled high 
school students provides a basis for competency education through the 
14 certificate programs as part of the seamless education.
    <bullet>  Classroom instructors have high expectations for learning 
within their areas, and the students have high expectations for their 
ability to learn. Staff members view themselves as coaches more than 
teachers, where demonstrating and modeling are more important than 
simply telling.
    <bullet>  An attitude permeates the center that students should be 
treated as adults, with high expectations for learning. It is also 
expected that students accept personal responsibility for their 
learning, attendance, and attitudes.
    <bullet>  The staff created a curriculum that is both relevant to 
the students' lives after schooling, and rigorous so those students 
will be well served when entering the labor market. The staff seeks to 
maintain a cutting-edge technology represented in the businesses and 
industries within the region through the operation of working 
partnerships.
    The staff and administration of CEC identified challenges that 
remain:
    <bullet>  Increase communication with parents.
    <bullet>  Re-define better procedures to provide communication 
between base high schools and the center.
    <bullet>  Increase efforts to track the success of graduates in 
their careers and in postsecondary institutions.
    <bullet>  Address ways to continue to improve the state test scores 
of students enrolled in the center.
    <bullet>  Organize a formal orientation program for new employees 
to ensure an understanding of the center's mission, goals, and 
expectations.
    <bullet>  Integrate core academic areas into the technical program.
    <bullet>  Graduate students with more than one certification.
    <bullet>  Keep the state-of-the-art technology current.

XIII. Principal's (CEO's) List of Five Greatest Strengths
    When asked to name the five greatest strengths of the Central 
Educational Center, CEO Moore provided the following list.
    1.  Relevant Performance-based Curriculum and Instruction. CEC can 
speak directly to the post-school success of each student. We excel in 
areas traditionally separated as ``academic'' and ``technical'' 
education. Research suggests that the employment community (to which 
most students will one day belong) demands a whole person capable of 
performing and managing. This relevant, contextual curriculum and 
instruction provides great ``value-added'' learning experiences that 
build towards higher levels of compensation and complexity. Our US 
economy is shedding unskilled jobs, and our workforce must be provided 
the opportunity to achieve higher standards in more complex, demanding 
jobs. CEC is a major cog in the educational machine that is responsive 
to this need.
    2.  Joint Venturing. In the business world, partners give up 
control in order to achieve higher levels of performance for the 
organization. In joint ventures, the organization's success is valued 
above the standard operating procedures of the individual partners. 
This is very difficult to achieve in education, in particular. At CEC, 
our joint venture partnership has broken that mold. We allow the 
practical transition of high school students into technical college 
(dual enrollment) with all its strengths. Though these first joint 
venturing steps have been sometimes tentative, the fact that we have 
opened the door to this higher level of partnership is a radical and 
necessary change. All the partners (the school system, technical 
college, business community) have given up certain controls in order to 
achieve at higher levels as a joint venture. In addition, the state's 
charter school law has been a critical piece of the infrastructure 
necessary to make this joint venture operational. While, in theory, the 
joint venture could be achieved without charter school status, the 
flexibilities inherent in the charter school concept pave the way for 
new ventures.
    3.  Work Ethic. In education today, we hear much about ``character 
education'' or ``values education.'' At CEC, we have placed these ideas 
in context, and because we have done so, our students see the relevance 
of good character and good values. We have taken the higher road at CEC 
with the emphasis on work ethic by tying their experience to relevant 
future experiences.
    4.  Data-driven Management. CEC was designed from data derived from 
community surveys. We measure its performance from various data 
collected. We drive its improvement by holding certain measurements as 
being ``more'' or ``less'' important. CEC is not about the ``opinion'' 
of certain content-driven curriculum groups. It is, rather, about the 
data that specifies how learning best occurs. Data continues to change 
what is taught. Holding true to this strength will promote continuous 
improvement in CEC's future.
    5.  Post-secondary Environment and Organization. To achieve each of 
the first four strengths, it is necessary to develop an environment 
that facilitates the development of such strengths. We at CEC believe 
that this cannot be done in the traditional high school. As Assistant 
U.S. Secretary of Education Susan Sclafani discussed in a recent visit 
to CEC, ``The American high school must be re-invented and re-
organized.'' Leadership at CEC is organized around function rather than 
rank. Directors have replaced teachers. Team members have replaced 
students. Choice, rather than compulsion, is the method by which 
students connect to CEC. The organizational structure is flattened and 
eliminated, in order to achieve the original design. Our team members 
have consistently rated CEC's environment as attractive, and so have 
our directors. In fact, recent school system climate surveys reinforced 
this concept in relationship to other high schools. More importantly, 
CEC's organizational design and implementation provide students with a 
glimpse of the postsecondary world in which they will live. As a 
result, CEC is more relevant to business organizations of today than 
are traditional high schools.

                               Appendix C

    Collaborative Study:
    Final Report
    Georgia Department of Technical and Adult Education

    Prepared by:
    Carl Vinson Institute of Government
    University of Georgia
    Athens, Georgia
    January, 2002

Introduction
    In recent years the Carl Vinson Institute of Government at the 
University of Georgia has conducted numerous survey research projects 
for the Georgia Department of Technical and Adult Education. Most of 
these survey projects have measured the level of satisfaction of 
graduates with their technical college education. One important 
population of technical college graduates not included in past studies 
is graduates who were dually enrolled in high school and a Technical 
Certificate of Credit program at a technical college. The pilot 
Collaborative Study used a mail survey to measure the satisfaction of 
these graduates. This report summarizes the overall findings of the 
pilot Collaborative Study.

Response Rate
    Overall, 454 surveys were mailed, with 44 being returned as 
undeliverable. Of the 410 graduates who received surveys, 87 replied, 
for a response rate of 21 percent. (Note: all percentages are rounded 
to the whole number.) Graduates from five technical colleges 
participated in the pilot study [with the number of respondents in 
parentheses]: Coosa Valley Technical College (9), North Georgia 
Technical College (26), Sandersville Technical College (11), Valdosta 
Technical College (9), and West Central Technical College (32).
    Respondents are evenly split by gender (54% female and 46% male). 
Over three-fourths of respondents are white (77%) and 21 percent are 
African-American. Asian, Other, and Hispanic descent were chosen by 
only one respondent each.

Survey Findings
    Survey findings are presented in the order that the questions 
appear on the survey. (See Appendix A for a copy of the survey 
instrument.)
    <bullet>  Question 1. Which high school did you attend?
    Respondents represent a total of 29 high schools. Listed below are 
the nineteen high schools attended by two or more respondents [the 
number of respondents in parentheses].
    Coosa Valley: Cedar Town (5); Model (3)
    North Georgia: Habersham Central (2); Lumpkin (2); Stephens (4); 
Towns (5); Union (5); White (2)
    Sandersville: Brentwood (2); Hancock Central (5); Washington (3)
    Valdosta: Cook (2); Lowndes (2); Valdosta (4)
    West Central: Douglas (4); East Coweta (3); Lithia Springs (2); 
Newman (15); Northgate (7)
    <bullet>  Question 2. Which track were you on in high school?
    Fifty-nine percent of respondents were on a college-preparatory 
track in high school, while 67 percent were on a vocational track. 
Twenty-three respondents (26%) indicated that they were on both tracks.
    <bullet>  Question 3. When did you graduate from high school?
    Since one of the main goals of collaborative programs is to help 
reduce the high school dropout rate in Georgia, it is significant that 
98 percent of respondents graduated from high school. (Note: The other 
two respondents are still in high school; no respondents indicated that 
they ``do not expect to graduate.'') Respondents finished high school 
in the following years: 1998 (7%), 1999 (15%), 2000 (18%), 2001 (39%), 
and 2002 (21%).
    <bullet>  Question 4. How did you find out about the technical 
college programs available through your high school?
    Respondents initially learned about the technical college programs 
available through their high school from the following sources: a high 
school counselor (61%), a representative from a technical college 
(44%), a teacher (44%), and a friend/peer (28%). Examples of other 
sources of information about collaborative programs are school field 
trips to technical colleges and announcements made by the high school 
principal.
    <bullet>  Question 5. What year in high school were you in when you 
started the technical college program?
    Sixty-five percent of respondents started their technical college 
program during their senior year of high school and 35 percent started 
in their junior year. Two additional respondents wrote on their surveys 
that they began the technical college program in their freshman year.
    <bullet>  Question 6. When did you finish your technical college 
program?
    Eighty-five percent of respondents completed their technical 
college programs. These respondents graduated in the following years: 
1998 (4%), 1999 (9%), 2000 (14%), 2001 (59%), and 2002 (13%).
    Of those that graduated from both their high school and their 
technical college programs, 57 percent graduated from the two schools 
in the same year and 84 percent graduated from both within one year of 
each other.
    <bullet>  Question 6a. If you did not graduate from your technical 
program, how many courses did you complete?
    No data can be reported for this question due to the low number of 
respondents who did not graduate, and because few respondents correctly 
answered the question. For example, some provided the number of 
semesters completed while others left the space blank. Consequently, 
this question should be reformatted or deleted altogether in future 
studies.
    <bullet>  Question 7. Since completing high school, have you...
    Since completing high school, all of the respondents have found a 
job, continued their education, or both. Most respondents either have 
entered the workforce (78%) or are continuing their education (66%). 
More specifically, 30 percent entered another technical college 
program, 37 percent enrolled at another college or university, and 3 
percent have either not found work or have become unemployed (but are 
continuing their education). Respondents could choose more than one 
option, so the following are the most common combinations of post-high 
school activity:
        <bullet>  30 percent entered the workforce
        <bullet>  21 percent entered the workforce and entered another 
        technical college program
        <bullet>  22 percent entered the workforce and enrolled at 
        another college or university
        <bullet>  13 percent enrolled at another college or university
        <bullet>  5 percent entered another technical college program
    <bullet>  Question 8. What is your job?
    <bullet>  Question 9. Your current position is... (Related/Not 
Related to your previous technical training)
    Almost fifty percent of respondents who entered the workforce are 
in a position that is related to their previous technical training. 
Examples of jobs that are related to the student's program are web 
designer, flexograph press operator, cosmetologist, customer service 
representative, fork lift operator, veterinarian's assistant, intern 
architect, carpenter, welder, and physical therapy technician.
    <bullet>  Question 10. Are you currently employed...
    Seventy-five percent of those who entered the workforce are 
currently employed full-time (40 hours per week), while 25 percent work 
part-time.
    <bullet>  Question 11. What technical college do you currently 
attend?
    Seventy percent of those who entered another technical college 
program did so at the same technical college where they participated in 
the collaborative program.
    <bullet>  Question 12. What is the name of your program?
    Question 13. Your current program is... (Related/Not Related to 
your previous technical training)
    Seventy-four percent of respondents who entered another technical 
college program are in a program that is related to their previous 
technical training. Examples of related programs are Welding and 
Joining Technology, Accounting, Business Office Technology, CIS-
Networking, Industrial Electrical Technology, CISCO Networking, and 
Medical Assistant.
    <bullet>  Question 14. Which college or university do you currently 
attend?
    Respondents are currently attending sixteen different colleges and 
universities, fourteen of which are in Georgia. The most common 
responses were for Georgia Southern (2), Georgia State (5), Catawba 
College (2), and West Georgia (6).
    <bullet>  Question 15. What is your major/program of study?
    <bullet>  Question 16. Your major/program of study... (Related/Not 
Related to your previous technical training)
    Fifty-nine percent of respondents who enrolled at another college 
or university are in a major/program of study that is related to their 
previous technical training. Examples of related majors are Pre-
Veterinarian/Medical, Telecommunications, Computer Sciences, Nursing, 
Pre-Engineering, Pre-Medical, Architecture, and Pre-Physician's 
Assistant.
    <bullet>  Question 17. Would you recommend attending a technical 
college?
    Consistent with previous studies, an overwhelming majority of 
respondents (98%) would recommend attending a technical college.
    <bullet>  Question 18. How satisfied are you with your technical 
college experience?
    Similarly, 90 percent of respondents are either satisfied (39%) or 
very satisfied (51%) with their technical college experience.
    <bullet>  Comments.
    Space was provided at the end of the survey for the respondents to 
explain or expound upon their answers. Selected representative comments 
are:
    <bullet>  The technical skills I received during school are very 
useful in the workforce.
    <bullet>  The technical college experience...allows the student and 
teacher to have one-on-one contact.
    <bullet>  Attending a technical college gave me the hands-on 
experience that most jobs are looking for. It was also a great 
challenge.
    <bullet>  This program gave me the basic skills of the career of my 
choice. It helped me to grasp new and better ways of self-discipline.
    <bullet>  I think that technical colleges are the best way to get 
the skills, experience, and confidence to enter the workplace and 
succeed.
    <bullet>  I think that the benefits of taking technical college 
courses while in high school are gaining experience, being able to 
stand out among the crowd, and becoming more versatile in the job 
market right out of high school.''

Findings by College
    Overall, it is clear that the collaborative programs provide a 
tangible incentive for high school students to stay in school and earn 
their diploma. The relatively low number of responses from each 
college, however, precludes valid analysis of the data on a school-by-
school basis. One interesting observation, however, is that the only 
two respondents who have not yet graduated from high school are both 
from the same technical college, and are both still in high school. 
This suggests that the high school completion rate for dual enrollees 
may actually be 100 percent.

Conclusion
    Five important conclusions can be drawn from the collaborative 
program pilot survey.
    <bullet>  First, consistent with the satisfaction rate of graduates 
found in previous studies, graduates of the collaborative programs are 
overwhelmingly satisfied with their technical college experience.
    <bullet>  Second, in light of current concerns regarding Georgia's 
high school students, the findings indicate that these programs provide 
an additional incentive for high school students to stay in school and 
earn a diploma. Indeed, the statewide completion rate for the high 
school class of 2001 was only 71 percent, compared to 98 percent of 
those in a technical certificate of credit collaborative program.
    <bullet>  Third, the placement rate for graduates is 100%, as all 
of the respondents have either found work or are continuing their 
education.
    <bullet>  Fourth, graduates of these programs that stay in the DTAE 
system after graduation tend to re-enroll in programs that build on 
their previous training.
    <bullet>  Last, these overwhelmingly positive results seem to 
justify a statewide analysis of graduates of collaborative programs in 
order to document thoroughly this unique approach to improving the 
quality and diversity of educational opportunities in Georgia.
                                 ______
                                 
    [Additional attachments to Mr. Moore's statement have been 
retained in the Committee's official files.]

                                 <all>

</pre></body></html>
